<html>
<title> - IMPROVING SECURITY AND FACILITATING COMMERCE AT THE NORTHERN BORDER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE NORTHERN BORDER
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2001

                               __________

                           Serial No. 107-130

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                           U.S. GOVERNMENT PRINTING OFFICE
82-583                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
             Nicholas P. Coleman, Professional Staff Member
                          Conn Carroll, Clerk
                  Julian A. Haywood, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2001................................     1
Statement of:
    Brown, Rear Admiral Erroll M., Commander, 13th Coast Guard 
      District, U.S. Coast Guard; Thomas W. Hardy, Director, 
      Field Operations Northwest Great Plains Customs Management 
      Center, U.S. Customs Service; Robert S. Coleman, Jr., 
      Director, Seattle District, Immigration and Naturalization 
      Service; and Ronald H. Henley, Chief Patrol Agent, Blaine 
      Sector, U.S. Border Patrol, Immigration and Naturalization 
      Service....................................................    10
    Gardner, Georgia, senator, Washington State Senate; Pete 
      Kremen, Whatcom County executive; Jim Miller, executive 
      director, Whatcom Council of Governments; Pam Christianson, 
      president, Blaine Chamber of Commerce; Barry Clement, 
      president, National Treasury Employees Union, Chapter 164; 
      and Jerry Emery, vice president, American Federation of 
      Government Employees, National INS Council, Local 40.......    87
    Meredith, Val, member of Parliament, House of Commons; David 
      Anderson, president, Pacific Corridor Enterprise Council; 
      Terry Preshaw, member, Vancouver Board of Trade; and Gordon 
      Schaffer, president-elect, White Rock & South Surrey 
      Chamber of Commerce........................................    54
Letters, statements, etc., submitted for the record by:
    Anderson, David, president, Pacific Corridor Enterprise 
      Council, prepared statement of.............................    61
    Brown, Rear Admiral Erroll M., Commander, 13th Coast Guard 
      District, U.S. Coast Guard, prepared statement of..........    13
    Christianson, Pam, president, Blaine Chamber of Commerce, 
      prepared statement of......................................   117
    Clement, Barry, president, National Treasury Employees Union, 
      Chapter 164, prepared statement of.........................   123
    Coleman, Robert S., Jr., Director, Seattle District, 
      Immigration and Naturalization Service, prepared statement 
      of.........................................................    29
    Emery, Jerry, vice president, American Federation of 
      Government Employees, National INS Council, Local 40, 
      prepared statement of......................................   129
    Gardner, Georgia, senator, Washington State Senate, prepared 
      statement of...............................................    90
    Hardy, Thomas W., Director, Field Operations Northwest Great 
      Plains Customs Management Center, U.S. Customs Service, 
      prepared statement of......................................    21
    Henley, Ronald H., Chief Patrol Agent, Blaine Sector, U.S. 
      Border Patrol--Immigration and Naturalization Service, 
      prepared statement of......................................    38
    Kremen, Pete, Whatcom County executive, prepared statement of   102
    Meredith, Val, member of Parliament, House of Commons, 
      prepared statement of......................................    56
    Miller, Jim, executive director, Whatcom Council of 
      Governments, prepared statement of.........................   107
    Preshaw, Terry, member, Vancouver Board of Trade, prepared 
      statement of...............................................    75
    Schaffer, Gordon, president-elect, White Rock & South Surrey 
      Chamber of Commerce, prepared statement of.................    78
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4


  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE NORTHERN BORDER

                              ----------                              


                       MONDAY, DECEMBER 10, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                        Blaine, WA.
    The subcommittee met, pursuant to notice, at 1:30 p.m., at 
the Senior Center, 763 G Street, Blaine, WA, Hon. Mark E. 
Souder, (chairman of the subcommittee) presiding.
    Present: Representatives Souder and Larsen.

 Staff present: Christopher Donesa, staff director and chief counsel; 
   Nicholas P. Coleman, professional staff member; and Conn Carroll, 
                                 clerk.

    Mr. Souder. Good afternoon and thank you for coming. Today 
our subcommittee will explore the status of the Blaine, WA 
border crossing. Even before the terrorist attacks on September 
11, 2001, this subcommittee was considering ways to improve 
both the security of our Nation's borders and the efficient 
flow of international commerce, travel and tourism. Continuing 
problems with illegal immigration and the smuggling of drugs 
and other contraband over the Southern and Northern borders, 
and the threat of terrorism, have prompted calls to hire more 
Federal law enforcement officers and to expand the physical and 
technological infrastructure needed to allow those officers to 
work effectively.
    The attacks of September 11th have only heightened our 
sense of urgency in dealing with the terrorist threat as well 
as the problems of narcotic interdiction and illegal 
immigration. At the same time, long delays at border crossings 
and a sharp reduction in commercial and commuter traffic 
resulting from the increased security measures put in place 
after September 11th have raised concerns about the effect of 
these policies on trade, tourism and travel. Congressman Larsen 
has been a leader in making sure that we are aware of this 
balance as has both senators in Washington State.
    Congress has been considering numerous proposals to deal 
with these problems, and our subcommittee is open to exploring 
all of them. However, finding and implementing solutions is 
more difficult than simply identifying problems. For example, 
the House of Representatives and the Senate recently passed 
anti-terrorist legislation that, among other measures, 
authorizes the tripling of the number of Border Patrol agents, 
INS inspectors, and Customs inspectors along the Northern 
border. It is unclear, however, how quickly any of these 
agencies can meet these requirements; moreover, it is unclear 
what the impact of the new emphasis on anti-terrorism will be 
on personnel decisions at each of these agencies. In the rush 
to protect our Nation's borders from terrorists, we must not 
hamper our ability to protect the citizens from other dangers.
    This hearing is part of a series of field hearings which 
this subcommittee is holding at border crossings and ports of 
entry throughout the United States. At each location, this 
subcommittee is assessing the problems facing the Federal 
agencies, local lawmakers, and community and business leaders 
with respect to border policy. We will focus on what new 
resources are needed for the Federal Government most 
effectively to administer the border crossing, as well as what 
new policies could be pursued to ease the burdens being placed 
on commerce, travel and tourism. We will also explore how the 
new emphasis on preventing terrorism may affect the ability of 
these agencies to carry out their other vital missions.
    Last week, for example, we held a hearing with the head of 
INS, the head of Customs, the head of DEA, the head of the 
Coast Guard, as well as representatives from the FBI to look at 
how diverse anti-terrorism and what that means for other 
missions and to what degree they are complimentary.
    These issues are all very important and extremely urgent, 
and I look forward to hearing from our witnesses today about 
ways to address them. We have invited representatives of the 
agencies primarily responsible for protecting our borders in 
this region, namely the U.S. Customs Service, the Immigration 
and Naturalization Service, the U.S. Border Patrol, and the 
U.S. Coast Guard, to testify here today. The subcommittee is 
vitally interested in ensuring the effective functioning of 
these agencies, and we will continue to work with them and 
their employees to ensure the continued security and effective 
administration of our Nation's borders.
    We welcome Rear Admiral Erroll M. Brown, Commander of the 
13th Coast Guard District; Mr. Thomas W. Hardy, Director of 
Field Operations of the Northwest Great Plains Customs 
Management Center; Mr. Robert S. Coleman, Jr., Director of INS' 
Seattle District; and Mr. Ronald Henley, Chief Patrol Agent of 
the Border Patrol's Blaine Sector. We also welcome Mr. Barry 
Clement, a Customs Inspector and president of Chapter 164 of 
the National Treasury Employees Union; and Mr. Jerry Emery, an 
INS Inspector and vice president of Local 40 of the American 
Federation of Government Employees, National INS Council.
    Border policy, of course, affects not simply the United 
States, but also Canada. As such, it is of vital importance 
that we seek the input of our neighbors to the north in 
evaluating changes at the border. We are very pleased to 
welcome Ms. Val Meredith, member of the Canadian House of 
Commons, who represents the area of British Columbia just north 
of this area. We are very glad that Ms. Meredith could join us 
today. She is accompanied by several representatives of the 
local Canadian business community; Mr. David Andersson, 
president of the Pacific Corridor Enterprise Council; Ms. Terry 
Preshaw, a member of the Vancouver Board of Trade; and Mr. 
Gordon Schaffer, president-elect of the White Rock & South 
Surrey Chamber of Commerce.
    In fact, as I pointed out at a number of other hearings, 
the regional outgrowth of this came from U.S./Canada 
parliamentary group who have been talking about these issues 
for the last number of years where I co-chaired transborder 
subgroup.
    When examining border polices, we must of course also seek 
the input of representatives of the local community whose 
livelihood is directly affected by changes at the border. We 
therefore welcome State Senator Georgia Gardner; Mr. Pete 
Kremen, the Whatcom County executive; Mr. Jim Miller, executive 
director of the Whatcom----
    Mr. Miller. Whatcom.
    Mr. Souder [continuing]. Council of Governments, sounds 
like a Dot Com--and Ms. Pam Christianson, president of the 
Blaine Chamber of Commerce. We thank everyone for taking the 
time this afternoon to join us for this important discussion. I 
would now like to recognize Congressman Larsen.
    [The prepared statement of Hon. Mark Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.001
    
    [GRAPHIC] [TIFF OMITTED] T2583.002
    
    [GRAPHIC] [TIFF OMITTED] T2583.003
    
    Mr. Larsen. I want to thank Chairman Souder and the 
Committee on Government Reform's subcommittee for having the 
hearing here in Blaine this afternoon. I also want to thank 
you, Chairman Souder, for cosponsoring bipartisan pipeline 
safety legislation. I think Congress--as you might know in 
Bellingham here in Whatcom County, an explosion occurred years 
back where three young men were killed and really raised a 
profile of the pipeline safety. We want to thank you in front 
of the community.
    The common border we share with Canada has unique 
geographic, economic, and political characteristics, which 
create unique pressures and problems for our border 
communities, which call for unique solutions. The events of 
September 11th have changed each of our lives, our jobs, and 
our priorities in many different ways--especially for those 
from border communities. These events have also drawn attention 
to the problem of having insufficient resources along our 
border--a problem which our community is already painfully 
aware. The lack of resources along the border has had a 
detrimental affect on our economic security and our quality of 
life.
    Prior to September 11th, over 500,000 people and $1.3 
billion in trade crossed the U.S/Canada border daily.
    Even with temporary INS staff at the 128 Ports of Entry 
along our common border, long lines have plagued both travelers 
and international commerce. Border communities are losing jobs 
and their economies are suffering.
    A commitment to strengthening our Nation's security needs 
to include a commitment to strengthening our economy. Not long 
ago, I met with over 50 business owners and community leaders 
from Point Roberts and Blaine. The message was clear. Decreases 
across border traffic crippled business.
    Long lines have also damaged the quality of life for 
members of our border communities. One father wrote to me 
saying he could no longer attend his son's football games. By 
the time he leaves work and crosses the border, the game is 
nearly ended. Our kids our spending hours each day on busses 
waiting in lines to cross the border to get to school when they 
should be learning or participating in school activities.
    It is my hope that this hearing today will help produce 
some solutions to the problem. United States and Canada have 
already begun to address these problems together, but we have a 
lot of work in front of us. United States must first get its 
own house in order. As you know, there are currently only 440 
Border Patrol agents assigned to our Northern border compared 
to 8,000 at the Southern border. Similar discrepancies remain 
for INS inspectors and Customs officials. We cannot expect 
Customs and INS to do more for less, especially as increased 
trade, traffic and terrorist threats compete for our limited 
resources. I am therefore, encouraged by recent acts taken by 
administration and Congress to increase staffing. For instance, 
last week I wrote both INS and Customs and requested specific 
level of new INS and Customs staffing for the five ports of 
entry here in Whatcom County. In order for these ports of entry 
to be both safe and efficient, I asked for additional 70 full-
time INS, as well as 70 Customs personnel.
    While we desperately need an increase in staffing, that is 
just the beginning. We have to find a way to get a dedicated 
commuter lane up and running as soon as possible.
    Give us NEXUS now. The former dedicated commuter lane 
called PACE was closed September 11th. The PACE program was 
started in the early 1990's to allow U.S. citizens to complete 
a minimal background check and pay a $25 fee and then move 
freely across the border. It was a very successful program with 
over 160,000 participants. The PACE program has been 
instrumental in fostering the growth of our cross-border 
economy.
    In October I requested help in finding a way to get PACE 
running again with increased security until a new upgraded 
dedicated commuter lane program such as NEXUS can be 
implemented. I want to reiterate that request today.
    To do all we need to do requires international cooperation. 
U.S. and Canada are each other's No. 1 trading partners. 
Likewise, we ought to build on our mutual history of 
cooperation to continue to be not only one another's No. 1 
trading partner, but partners in security as well.
    One great example of a productive partnership between our 
two countries is in the area of law enforcement. Here along the 
Washington-B.C. border, U.S. and Canadian law enforcement 
agencies have joined together since 1997 in a program called 
the Integrated Border Enforcement Team [IBET]. We need to 
continue these cooperative efforts and build new ones while the 
U.S. works simultaneously to coordinate better cooperation 
among U.S. agencies.
    Central to the cooperative efforts, I think, is lean toward 
what is called a perimeter strategy. This will require better 
border management and information sharing between our two 
countries. Since September 11th we have been making strides in 
these areas.
    In order to move toward a perimeter strategy, though, we 
will have to stop focusing just on point of entry, but work to 
focus on point of origin, perimeter clearance. When combined 
with potential joint U.S. and Canadian inspections and 
undercover operations at overseas ports of origin, perimeter 
clearance provides a one-two punch to keep inadmissible aliens 
and illicit cargo from leaving on a plane or ship to North 
America.
    In closing let me say this, the overriding message that I 
would like you to take away from today's hearing is that common 
border security must be assured without hampering commerce and 
travel between the United States and Canada. It is essential 
that we all, constantly, vigilantly be encouraging the good 
traffic, and discouraging the bad traffic. Staffing, applied 
technology, and a cooperation. In the words of President John 
F. Kennedy talking to the Canadian Parliament in 1961, 
``Geography has made us neighbors, history has made us friends, 
economics has made us partners, and necessity has made us 
allies.'' Never has the focus on the border been more 
necessary.
    Mr. Chairman, I ask unanimous consent as well to enter my 
full written comments into the record.
    Mr. Souder. We have a sizable audience here today. Let me 
add a couple additional comments to my opening statement to put 
today's hearing in context. We are going to be doing several 
different things as you heard us outline. We are looking at 
both the national and the regional problems. Clearly what to 
you may seem a local issue is of great concern to people in 
Indiana where we have become a major recipient of ``BC Bud'' 
and drugs that are crossing this border. When we were at 
northeast we have seen Quebec Gold and precursor chemicals and 
ecstasy which has also come across from Vancouver come into the 
entire nation from the border. These are no longer just 
regional issues.
    And trade issue is not really just a regional issue either. 
The Ambassador Bridge in Detroit carries more trade than all of 
the U.S/Japan trade together in the United States. So in each 
of our locations, the trade that is coming across these major 
border crossings between the major north and south cities is 
not only impacting the border cities but impacting the 
innerlands and other parts of the United States as well.
    So in the context of what we are dealing with, I hope you 
understand that when we are dealing with national issues we 
also understand that your local concerns on trade are shared 
elsewhere in the United States. And our concerns about 
terrorism in other parts of the country are also shared about 
targets in the Pacific Northwest, whether it be potentially the 
targets in Seattle or San Francisco or even immediate areas of 
targets.
    Also we are not focusing just on Canada. Although I was up 
in Ottawa just last week at another congressional delegation, I 
had been up there a few weeks before and our chairmen are 
trying to work out legislation that is compatible among each 
other and it's easiest to work with Canada. We have also been 
working both in narcotics and other areas, with other nations 
as well.
    All of a sudden the fight against terrorism in the United 
States has become a universal international question regardless 
of whether you are a Republican or Democrat. We have, in 
addition to fighting a war, when, in fact, as a conservative 
Republican, I was one, and our current President was one that 
said we are not going to get into nation building. Now we are 
in the mix of each party in the Nation building, and every 
American, basically 90 percent, are supporting the efforts of 
doing this. It is a different world.
    And I did not--a month ago meeting with the exiled King of 
Afghanistan in Rome, we have met with Holland about the 
organization laws where their laws are making it difficult for 
us to track ecstasy. In Spain with their extradition laws as it 
relates to our ability to get Al Qaida members; with Germany 
with laws regarding trying to be able to track the 
organization, because if they can hide out in one country and 
move around we can't ever find them, whether it is narcotics or 
whether it is illegal terrorists. So it has become a much more 
network world where we have to look at how our international 
trade and our international criminal laws interact.
    And that is really what we are trying to do systematically 
with the Northern border crossing and Southern border crossing 
which our subcommittee has chosen to concentrate on.
    Before proceeding, I would like to take care of a couple of 
procedural matters. First, I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions to the hearing record, then any answer to written 
questions provided by the witnesses also be put in the record. 
Without objection, it is so ordered.
    Second, ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members of the witnesses may 
be included in the hearing record and all Members be permitted 
to revise and extend their remarks. Without objection, it is so 
ordered.
    It is a longstanding congressional protocol that government 
witnesses representing the administration testify first, so our 
first panel consists of those witnesses. So will the witnesses 
on the first panel please rise and raise your right hand while 
I administer the oath.
    Just for the record, this is an oversight committee so we 
have to swear in all of our witnesses. This committee was 
probably most noted over the last 6 years for having done the 
China Investigation, the Travelgate Investigation, the Waco, 
and all of those, and we have always historically sworn in 
witnesses. I hope we won't have anything like that today.
    [Witnesses sworn.]
    Mr. Souder. Let the record show each of the witnesses have 
answered in the affirmative. Each of the witnesses will now be 
recognized for opening statements. You can either summarize 
your testimony, no longer than 5 minutes or roughly take 5 
minutes, particularly since we have a large number of witnesses 
today. You may each insert your full statements and anything 
else into the record you would like to do so. It is my 
privilege to recognize Admiral Brown. You are recognized for 
your opening statement for the Coast Guard.

  STATEMENTS OF REAR ADMIRAL ERROLL M. BROWN, COMMANDER, 13TH 
   COAST GUARD DISTRICT, U.S. COAST GUARD; THOMAS W. HARDY, 
   DIRECTOR, FIELD OPERATIONS NORTHWEST GREAT PLAINS CUSTOMS 
  MANAGEMENT CENTER, U.S. CUSTOMS SERVICE; ROBERT S. COLEMAN, 
JR., DIRECTOR, SEATTLE DISTRICT, IMMIGRATION AND NATURALIZATION 
   SERVICE; AND RONALD H. HENLEY, CHIEF PATROL AGENT, BLAINE 
  SECTOR, U.S. BORDER PATROL--IMMIGRATION AND NATURALIZATION 
                            SERVICE

    Rear Admiral Brown. Good afternoon Mr. Chairman, I am Rear 
Admiral Erroll Brown, Commander of the 13 Coast Guard District 
headquartered in Seattle, WA. On behalf of the Commandant, 
Admiral Jim Loy, thank you for the opportunity to speak to you 
today about the challenges we face in the Pacific Northwest 
with respect to our role in law enforcement and homeland 
security particularly along the international border. Thank you 
also for recognizing the Coast Guard's key role in border 
security.
    The waterways of the Pacific Northwest are critically 
important gateways to the global economy, yet they are among 
the most vulnerable. Washington and Canada share approximately 
150 nautical miles of maritime border accessible to anyone with 
a water craft ranging from a jet ski to a commercial ship. In 
addition, the coastlines of Washington and Oregon represent an 
even larger international border between our Nation and the 
high seas. Over 2.5 million containers move through the 
combined ports of Seattle-Tacoma each year making it the second 
largest container cargo complex in the United States. Annually, 
over 15 billion gallons of oil move through the Strait of Juan 
de Fuca. Over 600,000 recreational boaters and a quarter of a 
million registered recreational boats enjoy the waters in and 
around Washington State. The Washington State Ferry system 
transports over 25 million passengers and 11 million vehicles 
on about 150,000 transits a year, and is the largest ferry 
system in the United States. Our growing cruise industry with 
over 230,000 passengers last year is forecast to triple in 
volume over the next few years. In addition, the Puget Sound is 
home to the third largest concentration of U.S. Naval Forces in 
the country. Protecting our maritime transportation system and 
critical infrastructure from terrorist activities has become 
one of our highest priorities.
    And much of this law enforcement activity takes place 
within our international maritime borders where illegal 
activity continues to escalate. Within 3 miles from the 
Canadian border, smugglers can quickly cross into one of the 
172 San Juan Islands. The marijuana industry in British 
Columbia is estimated at over $7 billion annually; marijuana 
goes south, cocaine goes north.
    Containerized shipment pose significant smuggling potential 
with the threat of drugs from Southeast Asia and South America. 
Marine containers offers traffickers a nearly unhindered, 
unmonitored mode for smuggling large quantities of drugs or any 
other illicit commodity. Applying law enforcement efforts 
result in inspection of less than 2 percent of containers being 
inspected when entering U.S. ports.
    Since September 11th our Nation has emphasized security 
increases along the land border. Smugglers will naturally turn 
to areas where there is less law enforcement presence--east 
toward more inhospitable terrain, and west onto the water.
    While we have established close relationships with our 
Canadian counterparts, and other U.S. law enforcement agencies 
across many areas of operation, challenges along the border 
remain significant. We operate a Cooperative Vessel Traffic 
Service with Canada. This system provides continuous 
communications with, and radar tracking of all commercial 
maritime traffic entering our waters. We are an active member 
of the international cooperative Integrated Maritime 
Enforcement Team [IMET], an organization of law enforcement 
agencies that conduct joint operations along the border. With 
combined resources and effort of the U.S. Coast Guard, U.S. 
Customs Service, U.S. Border Patrol, the Royal Canadian Mounted 
Police, and local sheriff's department, Congress has been 
making narcotic and other contraband seizure. The introduction 
of a high-speed 27-foot utility boat to the northernmost Coast 
Guard station, State of Washington finally gives us the ability 
to keep pace with fast smuggling vessels. That most recent bust 
of 100 pounds of marijuana occurred just last week, December 
4th. However, drug trafficking in the region has not been 
significantly impacted, even with additional assets moved to 
the border. With only a handful of law enforcement assets, 
thinly spread over a very large area, the maritime border 
remains porous.
    We are continuing to be balancing our mission requirement 
current resources. Homeland security and search and rescue are 
now our top priority.
    We continue to adjust our resources to meet mission demands 
and attain a sustainable operational balance. The greatest 
challenges in the Pacific Northwest are geography, and the high 
consequence of a successful terrorist attack on high-value 
assets and limited resources.
    In conclusion, the U.S. Coast Guard is an integral 
component of our Nation's homeland security efforts and the 
lead agency for maritime homeland security. We will make the 
best use of our resources to meet the demand for safety and 
security. We will maintain the viability and integrity of the 
maritime transportation system by working with other public, 
private, domestic, and international partners so that people 
and goods move safely while maintaining border integrity. Thank 
you for the opportunity to share our challenges that the Coast 
Guard in the Pacific Northwest faces today. And I appreciate, 
specifically, Congressman Larsen for recognizing some of the 
stellar work the Coast Guard does in protection of the border, 
U.S. Customs and Border Patrol. I would like to have the award 
that he presented to the men and women of Station Bellingham 
entered into the record.
    [The prepared statement of Rear Admiral Brown follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.004
    
    [GRAPHIC] [TIFF OMITTED] T2583.005
    
    [GRAPHIC] [TIFF OMITTED] T2583.006
    
    [GRAPHIC] [TIFF OMITTED] T2583.007
    
    [GRAPHIC] [TIFF OMITTED] T2583.008
    
    Mr. Souder. Thank you.
    Mr. Hardy.
    Mr. Hardy. Good afternoon. By way of introduction, my name 
is Tom Hardy, Field Operations Director for an area covering 
Point Roberts to Grand Portage, MN, so I have the flat part of 
the border that we talk about.
    Chairman Souder, Congressman Larsen, thank you for your 
invitation to testify and for providing me the chance to appear 
before you today. I would like to discuss the efforts of the 
U.S. Customs Service to address the terrorism threat and the 
challenges that exist along the U.S--Canadian border, commonly 
referred to as the Northern border.
    As one of the agencies that guard our nations, Customs has 
taken a lead role in efforts to deny entry to potential 
terrorists and the implements of terrorism into the United 
States from Canada. The Customs Service enforces 400 laws and 
regulations for more than 40 Federal agencies. Naturally, the 
ports of entry on the Northern border are a major focus of our 
efforts.
    Trade and travel between the United States and Canada has 
increased dramatically since the implementation of the North 
American Free Trade Agreement in 1994. The immense flow of 
trade and travel between the United States and Canada requires 
that our two nations continue to work together to enhance the 
protection of our vital interests at this critical time. Our 
security and anti-terrorism efforts must be balanced against 
the need to assure the smooth flow of legitimate trade and 
travel.
    Addressing the terrorist threat, security vulnerabilities, 
narcotics, agriculture product, and currency smuggling requires 
a coordinated, multi-agency and multi-national approach. The 
Customs Service continues to buildupon established cooperative 
relationships with the Immigration & Naturalization Service, 
the Border Patrol, the USDA, especially APHIS, the Coast Guard 
and Canadian authorities. Using a collaborative approach, all 
the agencies are employing targeting and risk management 
techniques to select people, vehicles, vessels, aircraft, and 
cargo for increased inspection. Canadian and U.S. agencies 
comprise the Integrated Border Enforcement Team in Blaine, one 
of two such teams located on the Northern border.
    The service port of Blaine consists of 13 land border ports 
within Washington State, plus the seaports of Anacortes, 
Bellingham, and Friday Harbor. The service port stretches from 
Point Roberts on the west, through the major port of Blaine on 
the Interstate 5 corridor, over the Cascade Mountains to the 
smaller ports in Eastern Washington. The Western Washington 
ports of Blaine, Lynden, and Sumas are a vital link between the 
metropolitan area of Vancouver, B.C., and the Seattle-Tacoma 
metropolitan area. During the last fiscal year over 5.8 million 
vehicles and nearly 800,000 trucks entered the United States 
through the Service Port of Blaine. Over $11 billion of 
commercial goods entered through the service port of Blaine 
last year alone.
    In addition, the Service Port of Blaine continues to be a 
hotbed of narcotic smuggling, agriculture products, and 
currency smuggling. Nearly 3 tons of high quality ``B.C. Bud'' 
marijuana, 242 pounds of cocaine, and approximately $5.5 
million in currency were seized in this area during fiscal year 
2001. Stepped up enforcement efforts at Blaine area ports of 
entry have pushed narcotic smugglers westward into the marine 
environment, and eastward toward the Cascade Mountains and 
beyond into Eastern Washington and Western Montana. In response 
to the growing narcotics threat, Customs has established a 
Customs Intelligence Collection and Analysis Team [ICAT] in 
Blaine.
    The Customs Service was addressing security along our 
frontier with Canada well before the attacks of September 11th. 
The arrest of an Algerian terrorist, Ahmed Ressam, during the 
millennium by U.S. Customs inspectors at Port Angeles, WA, is 
just one example of our ongoing efforts to prevent terrorism. 
That arrest also set into motion a range of measures to bolster 
security along our northern flank.
    In response to the terrorist attacks of September 11th, the 
U.S. Customs Service immediately implemented a level one alert 
for all personnel. This is our highest state of alert, calling 
for sustained, intensive anti-terrorist operations. We remain 
at level one alert today.
    This requires us to staff all ports of entry all hours of 
the day, 7 days a week with two officers. Here in Blaine at the 
Peace Arch, we have discontinued the PACE lanes in response to 
it.
    In order to meet the demands of maintaining this highest 
state of alert, nearly 100 additional Customs inspectors from 
throughout the United States have been temporarily detailed to 
Northern border posts. These officers are being deployed to 
ensure that this minimum staffing requirement applies even to 
our most remote locations. The National Guard will deploy 
additional personnel along the Northern border to further 
enhance security at the ports of entry.
    We have also received pledges of support from Canadian 
Customs and Royal Canadian Mounted Police in preventing 
terrorists and the implements of terrorism from transiting our 
country.
    I need to move on, for the record, just need to explain the 
challenges we have ahead. From an overall perspective, the vast 
volume of trade and traffic on our Northern border has put 
immense pressure on our ability to enforce the Nation's laws 
while facilitating international trade, even before September 
11th. After September 11th, our challenge rose to a new level. 
Although we have taken many steps to address these challenges, 
such as the planned improvements to our facilities and the 
temporary detailing of additional inspectors to Northern border 
posts, we still face many challenges.
    The Customs Service and the administration are working to 
address these challenges. We are developing threat assessments 
and a longer-term perimeter strategy to secure our homeland 
defense. In considering such a long-term plan, several core 
questions will need to be addressed. How can we best ``harden'' 
low-volume, high-risk ports of entry that pose a significant 
threat to overall border security? How can we best develop and 
deploy non-intrusive technology to detect the implements of 
terrorism? How can we best recruit, train, and house the 
additional Customs officers destined for Northern border 
security enhancement? And finally, how can we best enhance our 
industry partnership programs to enable the trade, 
transportation and business communities to assist in the 
overall security strategy envisioned by Customs?
    Those questions are on our national plate for resolution. 
Thank you, Mr. Chairman, Congressman Larsen for this 
opportunity to testify.
    [The prepared statement of Mr. Hardy follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.009
    
    [GRAPHIC] [TIFF OMITTED] T2583.010
    
    [GRAPHIC] [TIFF OMITTED] T2583.011
    
    [GRAPHIC] [TIFF OMITTED] T2583.012
    
    [GRAPHIC] [TIFF OMITTED] T2583.013
    
    [GRAPHIC] [TIFF OMITTED] T2583.014
    
    Mr. Souder. Mr. Coleman.
    Mr. Coleman. Mr. Chairman, Congressman Larsen, thank you. 
Robert S. Coleman, INS Seattle. Thank you for inviting me here 
today to address you on behalf of the U.S. Immigration and 
Naturalization Service.
    The shared border between the United States and Canada is 
invested with an openness that is worth protecting. This is 
especially true in the Seattle District area. To preserve the 
current level of openness, INS uses both officers and support 
personnel to enforce immigration laws and facilitate trade and 
commerce, which is estimated to exceed $1 billion a day. The 
relationship that we have with Canada and our level of 
cooperation with its various agencies is essential to 
maintaining normal border operations. In addition, it takes 
people on the ground, in the booths, and in supporting offices, 
to keep legitimate traffic and commerce moving, while 
interdicting those who do not have a right to enter our 
country, and those who would do us harm.
    I know that you are now familiar with the various INS 
authorities and our inspection processes from your previous 
field hearings. Today I will focus on the Seattle District.
    The Seattle District in Seattle, we have two sub-offices in 
Yakima and Spokane. We are a full service district office that 
operates from all five of our operational programs: management, 
examinations, inspections, investigations, and detention and 
removal. All the branches have a specialized role in enforcing 
the Immigration and Nationality Act.
    The Seattle District encompasses the entire State of 
Washington, 10 northern counties in Idaho and pre-
inspectionsites in Canada; 70,000 square miles and 
geographically represents the largest district in the Nation. 
The District incorporates 500 miles of northern land border and 
2,400 miles of saltwater coastline. We operate out of 29 
physical locations. The District staffs two pre-inspection 
stations in British Columbia, two international airports in 
Washington State, five sea ports of entry located along Puget 
Sound, and 14 land border ports of entry located in the States 
of Washington and Idaho. Immigration inspectors at Seattle 
District ports of entry examine approximately 30 million 
entrants a year, roughly equivalent to the entire population of 
Canada.
    The Seattle District may be unique from other districts you 
have visited in that we have a large seaport operation. A 
recent highlight of our work within the seaport includes the 
significant level of work done by our inspectors to accommodate 
the 56 cruise ship sailings this past season. The Port of 
Seattle has already scheduled 78 cruise ship sailings for next 
season and the post September 11th redeployment of cruise ships 
from the European market may increase that number. The success 
of the Seaport unit is also a result of the excellent 
relationship we have with the U.S. Coast Guard, the U.S. 
Customs Service, and the U.S. Department of Agriculture.
    The long history of shared intelligence between the INS and 
Canadian officials has facilitated the interception of 
smuggling organizations transporting migrants to the United 
States via Canada. A recent example of this is Operation Cape 
May, and other human trafficking investigations involving 
shipping containers in the area between 1998 and 2001. In Cape 
May, we discovered a container with 18 males, 18 to 30 years of 
age, from the Fujian province in the People's Republic of 
China. Four aliens died as a result of the vessel conditions. 
Three of the human traffickers involved have pled guilty and 
five other persons involved have pled to Transportation of 
Illegal Aliens or Conspiracy to Transport. The standard 
sentences for these crimes range from 30 to 88 months, 78 
months, excuse me.
    The Seattle District Detention and Removal Unit detains 
anywhere from 160 to 200 aliens nightly in a Service owned/
contract managed facility. In addition, the District has 
contracts with other State and local detention facilities. In 
total, the Seattle District detains an average of 400-500 
aliens nightly. The District also covers 100 percent of the 
Washington State Correctional System to find and remove 
criminal aliens. During fiscal year 2001, the District 
successfully removed 6,300 aliens, including 3,779 criminal 
aliens. I am hopeful that the current INS plans for a new 
contractor owned and managed detention facility will be 
fulfilled. Our current building was built in 1930. And we keep 
both law enforcement and benefits operations in that old 
building now.
    Since the terrorists attacks on September 11, 2001, the 
Immigration and Naturalization Service has operated under a 
threat level one of the U.S. Customs Service. This is the 
highest level of security. In response, the District also 
established a 24 hour command element staffed by Senior 
District leadership. Operations at alert level one entail more 
intense inspections, closer security of individuals, 
documentations and vehicles.
    Following the September 11th attacks, the District 
temporarily moved inspectional resources--during the winter 
hiatus--from some low volume ports to the high volume ports. 
These inspectors will have to go back when the cruise season 
and the summer season pick up again. In addition, Western 
Region detailed several officers to our district along with 21 
Border Patrol Agents to assist.
    As a result of the heightened threat level, all alternative 
inspection procedures, including PACE have been suspended. We 
hope that NEXUS will be its replacement, and I am working hard 
with our headquarters, and I welcome congressional leadership 
to help ensure that NEXUS be realized soon. But I would like to 
say it is the implementation of NEXUS that will be the trick 
and the hard part. And I hope we get the right amount of 
resources to help us maintain that support office.
    We also cooperate with other agencies. I am a member of the 
High Intensity Drug Trafficking Area, executive committee, and 
INS works with all of the agencies on drug smuggling, human 
trafficking. And I would like to say we also have great 
relationships with the private sector.
    Thank you Mr. Chairman.
    [The prepared statement of Mr. Coleman follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.015
    
    [GRAPHIC] [TIFF OMITTED] T2583.016
    
    [GRAPHIC] [TIFF OMITTED] T2583.017
    
    [GRAPHIC] [TIFF OMITTED] T2583.018
    
    [GRAPHIC] [TIFF OMITTED] T2583.019
    
    [GRAPHIC] [TIFF OMITTED] T2583.020
    
    [GRAPHIC] [TIFF OMITTED] T2583.021
    
    Mr. Souder. Mr. Henley.
    Mr. Henley. Mr. Chairman and Mr. Larsen, my name is Ron 
Henley. I am the Chief Patrol Agent of the Blaine Sector of the 
U.S. Border Patrol. Thank you for the opportunity to testify 
before you today.
    The U.S. Border Patrol is the first line of defense against 
persons attempting to illegally enter the United States between 
our ports of entry. The Border Patrol's primary mission is to 
prevent the illegal entry of aliens into the United States and 
to apprehend those persons found in the United States in 
violation of the immigration laws. Historically, the Border 
Patrol also serves as the primary interdicting force for drug 
smuggling between ports. We accomplish our mission through an 
aggressive forward deployment of Border Patrol Agents to the 
immediate border; the innovative use of technology; and a close 
working relationship with Federal, State, local, and Canadian 
enforcement agencies. I report to INS Headquarters through the 
Western Regional Office in Laguna Niguel, CA.
    Geographically the Blaine Sector encompasses the States of 
Alaska, Oregon, and Western Washington. The Sector's main focus 
of enforcement is the 120 miles of border stretching from 
Blaine, WA, to the Pacific Crest Trail of the Cascade Mountain 
Range, where the majority of the illegal smuggling activity 
occurs. The topography of this portion of the Sector is mainly 
rolling hills, mountains, forest land, and farmland. Interstate 
5 is the major interstate highway that offers rapid transit 
between the major urban communities of Vancouver, British 
Colombia; Seattle, WA; and further south to Portland, OR and 
Los Angeles, CA. The Blaine Sector is also responsible for 150 
miles of water boundary that separates the United States and 
Canada. Within these waters just south of Canada are the San 
Juan Islands, which number close to 200 small to medium-sized 
islands.
    There are five Border Patrol stations within Blaine 
Sector's area of operations, four located in western Washington 
and one in Oregon. Our staff includes one aircraft pilot and an 
intelligence officer. In addition to having uniformed agents, 
we have an Anti-Smuggling Unit and several Detention 
Enforcement Officers.
    Since September 11th, the Border Patrol has been on the 
highest state of alert. All available resources have been 
deployed to the immediate border, performing line watch duties 
24 hours a day, 7 days a week. To accomplish this task agents 
have been working 12-hour shifts.
    We have found that to continue to accomplish our mission, 
by far the best strategy to leverage our resources along this 
portion of the Northern border is to liaison and share real 
time intelligence with other law enforcement entities. This 
includes working hand in hand with all Federal, State and local 
law enforcement agencies, as well as developing an extremely 
close working relationship with the RCMP. Together we have 
developed a unique border management posture called the 
Integrated Border Enforcement Team. The border itself ties all 
agencies together for the common goal of making it secure. 
Agencies not only share intelligence but also perform joint 
operations acting on real-time intelligence gathered.
    Since fiscal year 1996, the Blaine Sector has apprehended 
approximately 14,500 removable aliens. During fiscal year 2001, 
the Sector apprehended 2,056 undocumented aliens. Of those 
apprehensions, approximately 13 percent were Canadian citizens. 
The Sector apprehends aliens from many different nations every 
year that utilize Canada as a transit country to gain entry 
into the United States.
    Over the past 5 years, Blaine Sector has experienced a 
large increase in narcotic seizures along the border. The 
primary drug has been the high quality ``BC Bud'' marijuana 
which is grown in British Columbia. We have reports of ``BC 
Bud'' marijuana going for as high as $8,000 a pound in Los 
Angeles. Since September 11th we have seen an increase in the 
sizes of marijuana loads encountered. In November alone, we 
apprehended three loads weighing a total of 825 pounds as 
smugglers attempted to bring them across the border.
    Border Patrol Agents assigned to the Blaine Sector are all 
experienced agents who have transferred from assignments along 
the Southern border. Agents use a variety of tools in the 
performance of their duties, including patrol cars, four-wheel-
drive trucks, snowmobiles, all-terrain vehicles, boats and 
airplanes. Technology, such as night vision cameras and 
sensors, is also employed by agents in remote areas of the 
border to detect and interdict illegal border crossers. Our 
agents also use the art of tracking or ``sign cutting'' in 
remote areas.
    The Blaine Sector makes effective use of electronic sensors 
as a force multiplier. The Sector has strategically placed 
seismic, magnetic, and infrared sensors in areas where Border 
Patrol Agents have detected or suspect illegal activity.
    A video camera monitoring system is also currently being 
installed along the border in our Sector. When completed, this 
camera system will provide 32 camera sites that will enable us 
to monitor designated areas along the border and will greatly 
enhance our capabilities day and night.
    The Blaine Sector's Anti-Smuggling Unit works closely with 
Border Patrol line units in establishing a united effort toward 
effective border control. This unit has established an 
aggressive approach to the prosecution of alien smugglers.
    Mr. Chairman, the agents of the U.S. Border Patrol and 
support staff are proud to be serving their country. I look 
forward to working with Congress and our partner agencies, such 
as the Customs Service, the Coast Guard, and the Agriculture 
Department to further enhance our capabilities in the 
accomplishment of our mission. Thank you for this opportunity 
to talk to you today.
    [The prepared statement of Mr. Henley follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.022
    
    [GRAPHIC] [TIFF OMITTED] T2583.023
    
    [GRAPHIC] [TIFF OMITTED] T2583.024
    
    [GRAPHIC] [TIFF OMITTED] T2583.025
    
    [GRAPHIC] [TIFF OMITTED] T2583.026
    
    [GRAPHIC] [TIFF OMITTED] T2583.027
    
    [GRAPHIC] [TIFF OMITTED] T2583.028
    
    Mr. Souder. Thank you for your testimony. It is rather 
stunning to see the mileage that you each have to cover in your 
different zones, all the way to Grand Portage, and I think 
Alaska as well.
    Let me ask some beginning questions but also say up front 
we will probably send you a fair number of written questions. 
One of the things we are trying to do at the hearing is to have 
a common base of questions that we ask at the different 
hearings that we prepare it for a report cross hearing. But I 
also want to make sure I get some particular questions in 
relation to the uniqueness of each hearing.
    First Mr. Hardy, I have some questions. One of the things 
we have seen on the Southern border, and I was curious when we 
were going along the border this morning, and I saw a train go 
through. What are we doing with trains in this zone?
    Mr. Hardy. We have five rail crossings in Washington State 
territory, and we are developing--we work with most of the rail 
companies, both Canadian and Burlington Northern, to develop 
manifesting system to better tell us ahead of time what cargo 
is coming across. Traditionally, and especially on the smaller 
rails, its agricultural products.
    However, as you move further across toward Chicago the 
markets there, Canadians are always taking some of the market 
containers from overseas. And we are having some difficulty 
getting that process automated in terms of getting additional 
information from--of the cargo that is inside the containers. 
And we are working with proactively, but under this time period 
we have had to do a few more searches on the border where we 
have very few facilities, and then we also direct some searches 
in the hubs like Chicago.
    Mr. Souder. One of the concerns that I have, there is a $7 
billion trade going on in ``BC Bud'', not to mention illegal 
immigrants. That's clearly one area that we are going to have 
to look at. And would encourage you to come to Congress with 
suggestions how to do that without negatively affecting 
Congress and commerce. I know busses, for example, have to 
disembark. Amtrak and other transit need to look at how we can 
do that in expedited fashion, yet be able to watch for 
terrorists. Also have to watch for box cars. I just saw lots of 
box cars going through like a port, a different type.
    Also had a couple of other questions for you. In eastern 
Washington we understand, I guess Oroville may be a similar 
type of a situation, is that is there a--what was the name of 
the other----
    Mr. Hardy. The joint facility?
    Mr. Souder. Yes.
    Mr. Hardy. We have--have partial construction, we have a 
joint facility in Oroville, Osoyoos is the Canadian counterpart 
for it. A similar joint facility is also in Sweetgrass, MT. 
These are both test ports under the accord Canadian share 
border, U.S. shared border. Testing a little larger market, we 
were successful doing joint facilities, and we have one in 
Danville, WA. And that actually is a one lane each way 
noncommercial port. This one we are introducing a concept of 
trucking to the joint facility.
    And it is definitely a more complex process, especially in 
terms of laying out the port so that the people can work 
together on various projects because the traffic flows, trucks 
going north, trucks going south, and needing some convenient 
place at the border side is problematic. We are working on it.
    Mr. Souder. Are the facilities on the U.S. side or some on 
the Canadian side?
    Mr. Hardy. The way it is going to be laid out is that over 
the border is shared facilities overhead and the traffic lines 
for passengers flow underneath the shared part of the facility. 
So up above will be conference rooms, work out rooms, 
supervisory offices non-enforcement type offices. Still 
remaining keeping our sovereignty and Canadian sovereignty in 
terms of searches.
    Mr. Souder. Both sides will have a search that won't be 
shared?
    Mr. Hardy. Right.
    Mr. Souder. One other question on the--what we have seen in 
the Caribbean and South America are the use of--Customs uses 
both marine resources but particular air helicopters and so on. 
Do you see additional need for that? We squeeze the main border 
crossing, are we going to see more pressure on the Cascades, 
Glacier Park and others as we move to the East?
    Mr. Hardy. We have seen that trend exactly as probably the 
growth of the IBET itself. The purpose of the IBET was because 
we were searching so hard inside the port we were actually 
figuring we are forcing people to go outside of the port to 
bring narcotics in, but for the IBET. One of the concepts was 
to force them back into the port, which we were. So we do see 
that, yes. Infrastructure both Customs and other agencies need 
that kind of technology and additional capability such as you 
mentioned to help us between the ports of entry.
    Mr. Souder. Thank you. Mr. Larsen.
    Mr. Larsen. It may not come as surprise to the members of 
community will be to Mr. Coleman about the PACE program. And 
you alluded to it. I wanted to give you an opportunity too, Mr. 
Coleman, to give a little more detail about implementation of 
NEXUS, the timing of it, the resources that we need here in 
Blaine to make that happen, as well as the enrollment of the 
timing and what kind of help you need in enrollment. So 
enrollment, and then staffing of the booth, if you will, and 
time lines for both.
    Mr. Coleman. Yes, sir. Just recently Tom Campbell from our 
headquarters visited the District and came up and visited the 
port. I believe that INS wants to implement NEXUS as fast as 
possible. In terms of equipment, just getting the site up and 
running for both ports, Pacific Highway and Blaine, I still 
think that is about 90 days just to have everything installed. 
I cautioned Mr. Campbell that the real trick was going to be 
enrolling the 100,000 plus current enrollees in PACE now so 
that we had as smooth as possible transition from PACE to 
NEXUS. It is not enough to have the equipment up and running. 
And it is really not enough to have someone in the booth. I 
believe we need an office that the public can come to for their 
enrollment and maintenance of that program needs. That is going 
to be the hard part. Historically, the inspectional process 
that INS runs likes to see things happen in the primary booth 
or in secondary. I believe that the time has come to make sure 
there is a support office that can support a business practice 
such as NEXUS.
    Mr. Larsen. On the 90th day, when would that clock start 
running?
    Mr. Coleman. I think that clock has started.
    Mr. Larsen. Enrolling 150,000 plus people requires what 
kind of staffing?
    Mr. Coleman. It takes a minimum of one officer to oversee 
the office, but I believe the model that INS should use is the 
model used for application support center where the public goes 
to now for its photographs and for--associated with the 
benefits applications, and those offices normally run with four 
or five people including an immigration officer who oversees 
the program and process.
    Mr. Souder. Is there an estimate what it might cost one 
individual--to participate in?
    Mr. Coleman. I am not prepared to talk about costs. The 
private sector and public would like to see the cost lower, but 
I know there is an application to have the cost associated to 
the cost of the program, so I am not prepared to talk about 
that.
    Mr. Larsen. What kind of--(inaudible) in order to fulfill 
the missions you were doing before September 11th and fully 
fulfill the missions that you now have after September 11th?
    Rear Admiral Brown. We are still working through what the 
Commandant has defined as the new normalcy; that is post 
September 11th. When the event occurred, we immediately 
responded to vulnerabilities that I highlighted in my 
statements including Navy ports and passenger vessels and other 
maritime traffic using resources we had at that time. We also 
brought aboard additional reserves. We had responsive 
auxiliaries. And what we find ourselves now in a position of 
pulling back from that a little bit, reaching for a more 
sustainable level of operation. We are continuing to look at a 
maritime security (MARSEC) model that standardizes our 
vulnerability assessment throughout all of our ports and gives 
us a risk basis for making resource allocations. So short 
answer to your question is, we are still making our assessment 
of what that new normalcy is. It does have us keeping search 
and rescue and maritime security on top priority and as 
available attending to the other mission responsibilities that 
we still have.
    Mr. Larsen. Let me restate that a little bit. What I heard 
you say is that bringing in auxiliaries and bringing in 
reserve, but you are now looking at perhaps giving some of 
those folks a break and then taking a look at the risks that 
are associated with any numbers of facilities here in the water 
in Puget Sound and trying to determine what more permanent 
numbers you might need?
    Rear Admiral Brown. Yes, that's correct. We, during 
September 11th and immediately following, were at our max 
personnel tempo and off tempo and those are things that we 
definitely are pulling back on to achieve a more sustainable 
level.
    Mr. Souder. Mr. Henley, are you currently staffed with all 
of the vacancies or are they all filled?
    Mr. Henley. No, sir. Lack about 2 of my 52.
    Mr. Souder. And have you seen any as you look, air marshals 
and others, have you seen any movement away from the Border 
Patrol to other law enforcement agencies?
    Mr. Henley. No, sir, not in my sector.
    Mr. Souder. Do you fear that coming?
    Mr. Henley. No, sir.
    Mr. Souder. I think a number of people mentioned to me this 
morning one difference this large military component that is in 
Washington State many recruits, we understand from our hearings 
in Washington, come from retired military or local and State 
law enforcement. Is there a general feeling that is given a 
different pool to this region than others?
    Mr. Henley. All of the agents that come up to the Northern 
border from the Southern border a lot of tenure to start with. 
Most of them have 10 plus years in before they have a chance to 
be up here. So that drives a lot of them.
    Mr. Souder. Kind of a waiting list?
    Mr. Henley. Yes, sir.
    Mr. Souder. And you have worked for years in the Southern 
border. You expect then if we hire more here, we are likely 
to--(background noise; inaudible)--Southern border further?
    Mr. Henley. Yes, sir.
    Mr. Souder. I am not sure exactly who I started with, Mr. 
Coleman. At the pre-clearance places that you have in Vancouver 
as well as other parts of Canada, one question, every time we 
talk about whether we are going to put any facilities on 
Canadian land is whether our agencies can be armed. Are they 
allowed to carry firearms in those?
    Mr. Coleman. No, sir. There is no firearms in Canada. There 
is a lot of work that goes into how many--how we negotiate with 
Canada regarding authorities and protection. There is no 
firearms. There is no personal protection devices either. And 
at some locations, there is no companion Canadian law 
enforcement to back us up.
    Mr. Souder. So if we move to more of these things, we need 
some kind of waiver order before our law enforcement is going 
to be willing to move. For example, we talked about putting 
truck ports on the Canadian side of the border, the Windsor 
Bridge or Buffalo Erie Bridge, but I was just double checking. 
To your knowledge has there ever been any waiver like that this 
morning?
    Mr. Henley. We have limited authority to go through Canada 
to Point Roberts, but no enforcement authority in between. So 
we do have authority to transport firearms with permits into 
Point Roberts, but that's pretty limited.
    Mr. Souder. For example, if you are enforcing the law over 
in Point Roberts and were coming back, somebody--one of the 
drug dealers, for example, could sandbag you?
    Mr. Henley. Could be.
    Mr. Souder. That in the marine area, which could, this 
could either be Coast Guard question to a degree. One of the 
unique reasons we came here, we have similar problems in Great 
Lakes, to less degree in Lake Champlain. If a boater heads from 
the Canadian side to the U.S. side, what mechanisms do we know 
that they don't have a terrorist or drugs on board? Do they 
have to register? Is it the same when they come in at other 
border crossings? If they don't go to a border crossing, do we 
have methods of monitoring? How does that work?
    Mr. Hardy. Perhaps I should start with that. We have border 
ports of entry at Friday Harbor out in the Islands that people 
are required to report to. And also, you know, lesser 
extensive, some of the mainland ports. However, we also have a 
small reporting system which registers very much like a PACE or 
like a--it is a preregistration system, which we try to vent 
those people that are involved in that, and there is a user fee 
requirement for some sizing of boats that we ask user fees.
    Mr. Souder. You do check the people that are registered 
against, like if they were crossing another port of entry? In 
other words, if you have a license to come in at Friday Harbor, 
would you be checked to see if you had given money to Al Qaida?
    Mr. Hardy. I don't know how sophisticated this is myself at 
the working level. What I do know, it is a pre-approved system, 
generally, so you apply and get authorization to call in. So we 
would check, generally, but specifically each crossing is not 
necessarily--they don't go through a personal check at each 
crossing.
    Mr. Souder. Admiral Brown, when you work within a narcotic 
or immigration question are you working on a tip that you have?
    Rear Admiral Brown. Yes. You heard many of the panels talk 
about intelligence. Clearly for us that is the most significant 
element. We talked about the expansive area, the thin presence 
and without clear intelligence, you are searching for a needle 
in the haystack. We made a lot of progress. You heard about 
IBET and IMET is the maritime equivalent of that. And we 
progressed significantly.
    Mr. Souder. What would any of you do to strengthen IMET?
    Mr. Coleman. I would like to have some resources assigned 
to it right now. Everything we do is associated with looking at 
cruise ships or small plane traffic that is coming in. And we 
have to check all of the freighters coming in. We only look at 
containers when we think there is somebody on it, in a 
container. But there are not any resources for us to really 
look at. A small boat program, and then we occasionally support 
IMET. But that is one occasional thing. We have law enforcement 
inspectors in the seaports, but they are stretched very, very 
thin.
    Mr. Souder. Anybody else on that? Quite frankly, it is a 
tad silly for the U.S. Congress to spend billions of dollars on 
borders if they are going to move to another place and we don't 
have a way to address it. We have to be thinking--doesn't mean 
we have to do it the first year. And it is just logical way to 
address a different thing. And as you look at that, 
particularly in the Puget Sound, 200 Islands and so much water, 
it is clearly vulnerability we don't have at some of the other 
places in the water. North Dakota presents a different problem.
    Mr. Hardy. Chairman, I am privy to information. 
Commissioner met with the Canadian counterpart, and they have 
discussed different methods, for example, checking out of 
Canada before you leave and checking back into the United 
States. I don't, you know, some of this gets to the legitimate 
boating public it sounds scary, but there are some novel things 
we are trying to work on in that area so it is being discussed, 
I think. If you could have a written reply from us for the 
record.
    Mr. Souder. My understanding, Admiral Brown, you are saying 
your resources are fairly stretched at this point. You said 
your first focus is the anti-terrorism; second, search and 
rescue, homeland security and search and rescue. You didn't 
mention drugs and certainly didn't mention immigration or 
fishery which is a huge issue. How far out do you go? Do you 
have Alaska region in this zone?
    Rear Admiral Brown. No, we don't have Alaska. We go out 200 
miles from our coast. We have--17th District has Alaska.
    Mr. Souder. Are your resources--are you projected to take a 
reduction next year?
    Rear Admiral Brown. Based on last figure we saw, we are not 
marked for a reduction.
    If I could answer two of your questions. One, you asked 
about--if I could go back to first question, what else could be 
done? I would quickly talk about two areas that have been 
addressed, but highlight them. One is enhanced internal 
cooperation and coordination among the agencies. We are already 
working on a joint revision of Memorandum of Understanding 
[MOU], focusing on enhanced border maritime domain where this 
element of knowing what is out there, inspection and 
investigation coordination and prevention response planning and 
operation of coordination. So coordinating the Federal elements 
and agencies already in the business. Because we talked about, 
as you know, as you raise one, you just have the bad guys to go 
to the others. So if we are going to raise the land border, we 
need to raise the maritime border equally, so that is 
coordination.
    The other side is cooperation with Canadian and multiple 
partnerships. In terms of North Star and others we can submit 
for the record. So it is coordinating together and also 
cooperation with our Canadian partner.
    And your other question about our effort and the other 
areas. We have, as our top priority, maritime security and 
search and rescue. We are known for our search and rescue. And 
our stations are placed for search and rescue. As we begin to 
look at our responsibility for maritime security, we find that 
we need to probably perhaps make some adjustment in those. We 
do continue to pursue and have returned to our law enforcement, 
which is predominantly drugs, migrant, and fish.
    We have some assets from the Navy. We have gotten increased 
cooperation from our industry partners. And that has provided 
us some relief and some return. So we are, again, to attend to 
those other law enforcement areas.
    Mr. Souder. Well, is all your staff full? Are all your 
current allotted slots full?
    Rear Admiral Brown. To the best of my knowledge, but we'll 
make sure to clarify that for the record.
    Mr. Souder. Do you have problems in your office?
    Rear Admiral Brown. Not here in the Seattle area but Coast 
Guard wide we are challenging our recruiting in the other 
military services are.
    Mr. Souder. And Mr. Henley, I wanted to ask you a couple of 
more questions. Where do you feel your area of the greatest 
need is right now?
    Mr. Henley. Right now it is the land border between United 
States and Canada, about 120 miles worth.
    Mr. Souder. And you have a projected increase of personnel?
    Mr. Henley. I have submitted staffing, but it is not been 
cleared yet.
    Mr. Souder. How much would you say that is?
    Mr. Henley. That basically triples our resources.
    Mr. Larsen. Mr. Henley, question about IBET. Just brought 
it up. There, I think, General Ashcroft and equivalent in 
Canada looking at expanding, using that model nationwide. Can 
you provide me with one or two or maybe three lessons about 
what we leaned here that can apply, that should apply across 
the border?
    Mr. Henley. I think that the IBET concept is a wonderful 
tool because the way I look at it I have basically expanded our 
IBET portion of it to all of my agents, so all of my resources 
are available to IBET. IBET concept simply is that two or more 
agencies working together for a common goal, which is secure 
the border. So it is a very basic concept. It is not 
necessarily an individual--I guess before September 11th it was 
probably an idea that you have a team that kind of augmented 
resources on both sides of the border. It is--I have proven 
pretty clearly that if I triple my resources and I put them up 
on the border, then the IBETs are going to have to go further 
out east or out the water because we are certainly going to be 
forcing that illegal entrance and commodity to the port of 
entry and elsewhere, because it is just a proven fact that once 
the deck is stacked, they will go to the path of least 
resistance.
    So I think that working with Canada is a wonderful working 
relationship, having been on the Southern border for most of my 
career. And we don't have that same luxury with Mexican 
Government that we do with Canadian Government. So there is a 
common goal here of border security. And I think we can expand 
IBET into more real live intelligence driven type information 
that would direct--help us direct our agents on the ground in a 
better fashion.
    Mr. Larsen. I want to followup on the questions about Air 
Marshals, and maybe Mr. Coleman help out as well because I have 
heard that there is actually, essentially, lack of a better 
term, salary ceiling; that there is opportunity for more 
advancement in the Air Marshal Program that we are developing 
as opposed to staying in INS or perhaps even Customs, Mr. 
Hardy. And I wanted to use that as preface to ask a question. 
Perhaps in Border Patrol in your sector it is not a problem, 
but is it a problem? Are we losing INS Border Patrol or Customs 
agents to the Air Marshal Program? And, if so, what should we 
do about it?
    Mr. Coleman. I will try to take that first. I believe work 
force issues, pay issues is, grade issues are paramount to the 
effectiveness of the employees. Our inspectors work very, very 
hard. And they see other agencies around them. They see other 
officers around them. And they see the work that they do. And I 
believe that the proper kind of grade, proper kind of pay, will 
match the commitment that they're giving and that they're 
putting up.
    And those work force issues cause problems. Cause morale 
problems over time and cause people to be disgruntled. So 
whether looking at Air Marshals or perhaps go to another agency 
or something, there is room for work to be done and some 
important leadership to be brought to bear to support those 
officers, particularly the inspectors in our ports.
    Mr. Henley. Our general level up here, we are just--we were 
able to show headquarters how the levels work up here from 
intelligence and other things that agents have to do is step 
above the normal Southern border which is GS-9 journey level. 
Up here able to get, not only here but in Spokane up to a GS-
11. That is still two pay grades behind any other agency.
    Again, these folks volunteered to come up here from the 
Southern border, so it is kind of a plumb, actually, to come to 
the Northern border from the Southern border. So, I really 
don't have a problem with agents putting in for air marshal or 
anything else. Most of them are--I'm probably one of the 
youngest guys there, and I am not too young myself. They don't 
have a vision to move on to something bigger and better, but 
the pay standard is lower than other agencies.
    Mr. Hardy. We have had 5 out of 100 apply, that we know of, 
for the sky marshal job, a couple of interviews. We haven't had 
any direct losses. We think it is a--law enforcement jobs are 
attractive to different people for different reasons. Sometimes 
it is just getting out of the territory you were in and 
sometimes it is getting into something very interesting. But on 
the whole I think it is just another opportunity. And we just 
have to do a better job recruiting to backfill.
    I do think the pay issues are definitely there, and I think 
right now we have our Customs agents that are assigned to the 
air marshal program. I would think because of the 
familiarization with the program, they may stand to loose more 
than the inspectors.
    Mr. Souder. General problems in the Coast Guard as well, is 
that correct?
    Rear Admiral Brown. Yes. One of our biggest challenges is 
being outside of DOD is the way the NDAA is appropriated. 
Normally what happens is we get, unfortunately, out of cycle 
with those allocations. And our budget sometimes is, at least 
preliminary, built when they come through with the NDAA 
adjustment. We think it is very important to have parity with 
DOD and so for us, that continues to be a challenge that we 
face.
    Mr. Souder. One of the big challenges, people say put more 
people on the border. We start to rob Peter to pay Paul unless 
we are training people because we don't want people to take 
early retirement from the military either, and if we drain 
State and local law enforcement, then that means property taxes 
affected, and pay higher salary. It is not an easy question to 
try to address.
    Thank you all very much for your answers. I want to take 
this opportunity to ask Mr. Hardy a couple of questions. I may 
not be able to get asked depending on whether we go to some 
other parts of Eastern border. That is, do you have any similar 
problems on Lake of the Woods as far as water traffic to Puget 
Sound?
    Mr. Hardy. Yes. Water and snowmobile in the winter time. 
Similar type of difficulty. Access is easy but control is 
difficult.
    Mr. Souder. Do you know, and I should--one rule of thumb, 
don't ask a question if you don't know the answer. But I 
suspect that--I know the ``BC Bud'' is coming into Indiana, has 
moved east--west east in Canada. Do you sense any of that was 
coming down though Minnesota at this point, or do you think it 
is going further east and then down?
    Mr. Hardy. Well, I believe it is coming----
    Mr. Souder. North Dakota has had some.
    Mr. Hardy. The furthest east I have heard is North Dakota 
and in significant quantities. It does not mean--I mean, the 
highways just keep moving east, and then they drop down. But, 
yeah, we know ``BC Bud,'' once again, in the United States it 
spreads out because of its THC content.
    Mr. Souder. Does the money tend to come up? In other words, 
here the marijuana is going down. Money is coming back to buy 
cocaine and heroin. When the drugs move west east and come 
down, do you see the money coming back across North Dakota, 
Minnesota or is the money coming back here?
    Mr. Hardy. We have seen our interdiction of cash coming up 
through here to pay for the marijuana, but also a barter system 
where cocaine is exchanged for the marijuana. Cocaine market 
being in Vancouver B.C., and marijuana coming south.
    Mr. Souder. And some case is pressure on Cascade National 
Park. Have you seen that at Glacier Waters and at all at 
boundary waters?
    Mr. Hardy. Those two particular locations are normally 
between the ports interdiction. I don't have any first hand 
knowledge, but our ports of entry, again, have smaller seizures 
but nothing in the extent that Blaine is experiencing.
    Mr. Souder. So Border Patrol would have that, but you have 
not gone that far yet. Do you have--are there in New York State 
we have a case where there is an Indian Reservation goes across 
both sides. Do you have any case on that at Grand Portage or 
west east?
    Mr. Hardy. Yes. Grand Portage has an Indian reservation, 
Sudatse, International Peace Arch which is also located next to 
the Indian reservation. Also various in Montana, various 
reservations do extend toward the border. We haven't 
experienced the extent of difficulties that New York has had, 
but we recently had a very large seizure--amphetamines through 
Grand Portage which was typical of trying every path to bring 
that. That is a bulk commodity. It has to come by truck. And it 
did come by truck in cargo through Grand Portage.
    Mr. Souder. Thank you. But we are--the main border 
crossings, but I was not sure on some of those. Anything else? 
Thank you very much. I appreciate your participation. We'll 
have additional questions.
    Will the second panel please come forward.
    Second panel. Let the record show that they responded in 
the affirmative. We need to have order in the room to carry on 
the hearing. We need----
    Ms. Meredith. Thank you, Mr. Chairman.
    Mr. Souder. Will everyone please be quiet. We are trying to 
conduct a hearing. If you can go outside. That is probably not 
the wisest thing to do, but somewhere outside. We can't get the 
transcript if there is not silence. She can't hear.

  STATEMENTS OF VAL MEREDITH, MEMBER OF PARLIAMENT, HOUSE OF 
COMMONS; DAVID ANDERSON, PRESIDENT, PACIFIC CORRIDOR ENTERPRISE 
 COUNCIL; TERRY PRESHAW, MEMBER, VANCOUVER BOARD OF TRADE; AND 
  GORDON SCHAFFER, PRESIDENT-ELECT, WHITE ROCK & SOUTH SURREY 
                      CHAMBER OF COMMERCE

    Ms. Meredith. Thank you. Mr. Chairman and Congressman 
Larsen, it is a pleasure for me to be testifying before your 
subcommittee today, although I must admit I am usually on the 
other side of the table. I also welcome you to this part of the 
continent. I hope you enjoy your stay, albeit a bit wet.
    This area contains two of the busiest border crossings west 
of Windsor, Detroit; the passenger vehicle crossing at the 
Peace Arch, and combined commercial and passenger vehicle 
crossing 1 mile to the east. I don't imagine that there are 
many border crossings anywhere in the world that have a more 
beautiful setting than the Peace Arch crossing. In the middle 
of the conjoined states and Central Park is the Peace Arch 
itself, which stands as a symbol of our cross border 
friendship. There are two mottos on the Peace Arch, one 
stating, ``Children of a Common Mother;'' and the other 
stating, ``Brethren dwelling together in unity.'' This is how 
many people in this area on both sides of the border have 
thought about each other as family. Quite different you might 
notice than the east coast and the eastern States.
    Mr. Chairman, I understand you have had the opportunity to 
tour other parts of this border region and seen in many places 
the border is no more than a ditch. In an isolated world, that 
ditch would be sufficient to maintain the required level of 
security between our two countries. But today we live in a very 
globalized environment, and as events of September 11th showed, 
threats can come from anywhere. However, a fortified Canada/
U.S. border will not increase security on this continent. Yes, 
security has to be increased, but not at the risk of 
jeopardizing the $400 billion U.S. in two-way trade that 
crossed our border last year.
    Other witnesses with me will go into the details of 
economic importance of our border, but I would like to remind 
the subcommittee that $20 billion U.S. in American industrial 
output is exported to Canada each and every month. In the past 
our relatively open border has been viewed as forest by some 
individuals on both sides of the border. Illegal drug 
importation has been a two-way street. I believe you would find 
that Canada Customs drug bust at the border often exceed the 
number of seizures by their American counterparts.
    Citizens on both sides of the border have expressed concern 
about the deplorable people smuggling industry, which has also 
been a two-way street.
    In addition, many Canadians are concerned about the flow of 
illicit firearms that are smuggled into Canada. Criminal 
offenses in both countries--used properly the border is very 
effective law enforcement tool.
    However all the issues seem minor in light of the event of 
September 11th. There is great cooperation locally with 
integrated border enforcement, and I am glad to see that the 
agreement with Attorney General Ashcroft signed with our 
Solicitor General will give additional resources to these 
teams.
    However, I am suggesting that we go beyond the piece meal 
approach of these agreements and develop a fully integrated 
border management agency. One way to describe this agency is as 
a civilian version of NORAD, a bi-national agency to protect 
our borders. As described in my written submission, which you 
have been provided with, this agency would provide both nations 
with a significantly increased security, not just physical 
barriers that jeopardize our bilateral trade, but through 
shared intelligence. Our immigration, Customs, and law 
enforcement, intelligence agencies on both sides of the border 
would have knowledge about the movement of everyone entering 
Canada and the United States. Key to this proposal is a 
separation of pre-clear, low risk travelers who voluntarily 
undergo pre-screening from individuals who show up at our 
borders as unknown entities. Using interactive biometric cards, 
this would allow real time delivery of intelligence among the 
various agencies.
    By giving these low risk individuals expedited entry into 
our countries, our security forces can concentrate their 
efforts on high risk or unknown individuals. By extending 
coverage to low risk goods carried by pre-cleared companies, 
such a system should actually improve the movement of goods 
than was the case prior to September 11th. Mr. Chairman, this 
plan is a culmination of over 5 years of work on border traffic 
that I have been involved in.
    In May 2000, I offered this report on trade corridors for 
Canada and U.S. parliamentary groups, and I have also provided 
copies of that for your committee to consider. My current 
proposal is just another extension of this report, but there 
appears to be greater inclination from members on both sides of 
our border to address these problems. While the events of 
September 11th are unparalleled tragedy, let us create 
something good out of this disaster. Thank you for allowing me 
this opportunity to present my written report and my verbal 
report.
    [The prepared statement of Ms. Meredith follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.029
    
    [GRAPHIC] [TIFF OMITTED] T2583.030
    
    [GRAPHIC] [TIFF OMITTED] T2583.031
    
    Mr. Souder. Thank you very much for your testimony. Thank 
you for your participation and working with the U. S. Congress 
and the House of Commons and our Senate because I think that is 
an important long term way to keep continuing to work together 
and appreciate your participation today.
    Mr. Andersson.
    Mr. Andersson. Thank you Chairman Souder, Mr. Larsen. And 
it is a pleasure and honor to be able to address you today. We 
are the Pacific Corridor Enterprise Council [PACE]. We were 
great supporters of the Peace Arch Crossing experiment when it 
first came into being. Unfortunately, it was a low tech 
experiment and as our border inspectors found, it deserved from 
time to time the nickname, the ``paraphernalia'' contraband 
express lane. We can't defend it any more. It is time to move 
on. We adopt and are enthusiastic about Mr. Larsen's comment. 
We need NEXUS and we need NEXUS now. We have conducted some 
research into what it would take to have NEXUS here. We 
listened with great interest to Mr. Coleman's comments. Meg 
Olson, a local from Blaine here in accessed information 
request, found some interesting numbers. It would take $172,000 
to implement DCL installation factors, and five inspectors cost 
about $20,000 a month. And we would be happy to share those 
with Mr. Coleman, although presumably he has a copy.
    But whatever we can do to move the agenda forward by 
enthusiastically supporting those who share--embrace the 
concept that when you drain the stream of legitimate business 
travelers, who are among the commerce of our two nations, then 
you allow our inspectors at the border to concentrate on the 
problems. And that is a concept that I believe you will find 
support for within the inspection agencies. With our biometrics 
that are available today we can do it. We can do it quickly, 
and I bet you we can do it in less than 90 days if we really 
put our mind to it.
    On the Canadian side of the border, I spoke extensively 
with Canadian Customs Revenue Agency, which runs CanPass lanes. 
They have 66,365 individual enrollees. When you add their 
dependents, that comes nigh on the 140,000, 150,000 people who 
are willing to step up and enroll very quickly.
    We endorse the legislation that the Senate has proposed 
introduced by Senators Kennedy, Brownback, Kyl, and Feinstein. 
That is bill S. 1749. Specifically we endorse and support the 
concept that dedicated commuter lanes should be made available 
to the business traveler free of charge. We submit that there 
are some great opportunities to move the program forward if you 
did that. And the dividends from having people quicker under 
the general stream and on to the dedicated commuter lane will 
yield dividends far in excess of the fees you would collect, 
the user fees.
    We endorse the concept of what you can do away from the 
border you should, stated many times over by Demetre 
Papademetrio the Canadian delegate for international peace and 
restated several times by people on both sides of the border.
    We have electronically included in our submission a copy of 
``Rethinking our Border,'' which is prepared by the Coalition 
for the Secure and Trade-Efficient Borders, a coalition of now, 
53 and growing business organizations north of the line.
    And finally in closing, we are proud members of the 
Americans for Better Borders. Our organization is a cross 
border organization of business people. Half of us are 
American, half of us are Canadian and we join 59 border 
organizations who are greatly in favor of continuing our 
billion dollar a day in business. Thank you for the opportunity 
to address you.
    [The prepared statement of Mr. Andersson follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.032
    
    [GRAPHIC] [TIFF OMITTED] T2583.033
    
    [GRAPHIC] [TIFF OMITTED] T2583.034
    
    [GRAPHIC] [TIFF OMITTED] T2583.035
    
    [GRAPHIC] [TIFF OMITTED] T2583.036
    
    [GRAPHIC] [TIFF OMITTED] T2583.037
    
    [GRAPHIC] [TIFF OMITTED] T2583.038
    
    [GRAPHIC] [TIFF OMITTED] T2583.039
    
    [GRAPHIC] [TIFF OMITTED] T2583.040
    
    [GRAPHIC] [TIFF OMITTED] T2583.041
    
    [GRAPHIC] [TIFF OMITTED] T2583.042
    
    [GRAPHIC] [TIFF OMITTED] T2583.043
    
    Mr. Souder. Thank you very much for your testimony.
    Ms. Preshaw.
    Ms. Preshaw. And thank you Chairman Souder and Congressman 
Larsen for inviting me to participate in this forum. I am 
representing the Vancouver Board of Trade. The Board of Trade, 
of course, is comprised of hundreds of Canadian businesses with 
strong economic ties to the United States either in terms of 
trade and/or actually conducting business in the United States 
through their other subsidiary company. Invest in the United 
States and create jobs for Americans. And in this Northwest 
corridor they are particularly critical to our economic well 
being. These companies may not survive, and certainly won't be 
investing in creating those U.S. jobs if the current sorry 
state of the border is not properly remedied.
    And let me say it one more time, NEXUS now. We need that 
dedicated commuter lane for business persons as soon as 
possible, and I agree with Mr. Andersson. I think we can get 
this done in less than 90 days if we really put our mind to it. 
Business travel must become a border priority. If it does not, 
again, our communities, our border community in the United 
States as well as Canada will suffer tremendously as they 
already have.
    One of the things that would be helpful is that perhaps we 
could look at having more NAFTA officers available once we get 
other things straightened out. We used to have dedicated NAFTA 
officers at all of our ports of entry.
    For various reasons, they are being allowed to disappear 
through attrition. Currently any officer is allowed to 
adjudicate NAFTA applications, assuming you know NAFTA 
applications are business oriented applications and very 
important way of Canadian business travelers getting to the 
United States to conduct their important business. If we could 
have more NAFTA officers, then we may be able to help 
streamline business traffic, and, you know, get these people in 
status so they can go to the United States and conduct that 
business.
    I would like to move over to NEXUS. An idea we had was that 
to ensure that NEXUS is not abused by potential terrorists and 
such, we might want to consider in the future a system where 
there are random biometric measurements that could be requested 
at the site, wherever they measure the biometric information. 
For example, the card could have four different biometric 
measurements on it; voice scan, iris scan, palm scan, or 
specific fingerprint scan. But the person entering the United 
States would not actually know which biometric measurement was 
going to be asked for at the port of entry. That way, a 
terrorist could not, for example, you know, chop off somebody's 
hand, steal their card and try to get it that way. I think the 
random nature could effectively circumvent evil-doer's ability 
to plan around this program and we need to think about these 
things, because believe me, they are thinking ahead too.
    The other idea we had for, well, ultimately helping 
business travel, but this could help everyone is perhaps you 
should consider streaming entry, that is using designated lanes 
for U.S. citizens, Canadian citizens or Canadian permanent 
residents, foreign visitors. I don't know if this is, how 
workable this would be, but perhaps someone could look at it.
    Finally, we are thinking that machine readable passports, 
making that the required entry and exit document for all 
seeking entry, could solve many problems in terms of the 
traveling of all visitors to the United States.
    Oh, and my last point, you really need to raise those 
salary levels of INS officers so that the INS can retain the 
competent people that they already have on staff and hopefully 
attract some more.
    Thank you very much. I appreciate the opportunity to 
address you.
    [The prepared statement of Mr. Preshaw follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.044
    
    [GRAPHIC] [TIFF OMITTED] T2583.045
    
    Mr. Souder. Thank you.
    And I hope your testimony is not quite as gruesome, Mr. 
Shaffer, about cutting off hands.
    Mr. Shaffer. Thank you, Mr. Chairman, Congressman Larsen. 
Traditionally the job of all Chambers of Commerce is to 
increase business in the area. Since September 11th the 
businesses in South Surrey and White Rock restaurants, stores, 
and lodging is down approximately 35 to 40 percent. The 
contributing factor for this is not only the recession 
presently on both sides of the border, but also the lengthy 
delays at both the Peace Arch and truck border crossings.
    It is true that security is paramount, which is good, but 
in order to provide an efficient flow to our citizens and 
commerce through the border certain remedies need to be 
addressed.
    And I would simply suggest the first: A new reinstated pre-
clearance and dedicated commuter lane to replace CanPass and 
PACE, currently known as NEXUS. This program could be 
implemented in 90 days.
    Second, it is apparent that Customs control on the American 
side of the border is under staffed, with only two of six lanes 
normally open at all times. On the side going north, normally 
five lanes are open at all times. This means going north 10 or 
15 minute wait. Coming south, up to 2 or 3 hours.
    Third, the resulting consequence of this is less Americans 
are coming to Canada to shop, despite the fact that the U.S. 
dollar is worth over $1.50 in Canadian dollars.
    Fourth, of all of the residents of Blaine, WA, that I have 
talked to, they tell me they love the exchange rate, but they 
don't come across the border to shop and dine because it is not 
worth the wait at the borders.
    Fifth, Canadian business shipping merchandise to the United 
States via trucking has been losing profits due to the long 
delays at the border. I have talked to some local people in 
White Rock and South Surrey. All of their profits are being 
lost in paying the drivers time while they wait at the border 
for clearance. They say it is about four times what it was 
previous to September 11th.
    And sixth, on both sides of the border we must work 
together to secure orderly fashion that our citizens and 
commerce can travel across the border to achieve our goals with 
security and without delays.
    And I would say in closing, I thank you for being here 
today, and I do have a unique outlook on this because I can see 
it from both sides of the border, because I am both American 
citizen and Canadian citizen. Thank you very much.
    [The prepared statement of Mr. Schaffer follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.046
    
    Mr. Souder. Thank you for your testimony.
    First let me ask for the record--I know I talked with Val 
about this. Would each of you support an implementation of the 
NEXUS system if someone, particularly if someone abused that 
there would be a stiffer penalty? And in, other words, in 
effect, if we are saying you have a special right. If you 
violate that right, you have twice the penalty you normally 
have for violations? Is each witness saying yes? Anybody has 
reservation about that?
    Ms. Meredith. If I can respond to that, Mr. Chair. I would 
suggest that in order to expedite the NEXUS program or a 
program similar using biometric and interactive card there 
would have to be serious penalty for somebody who was 
fraudulently using that system. And certainly somebody abusing 
an expedited lane for commercial purposes, I would suggest that 
they remedy--discipline would have to also not only driver but 
the trucking organization and potentially the business, the 
corporation who hired the trucking outfit. I think it would 
have to be something very severe, so responsibility of 
selecting who is trucking and what kind of clearance the driver 
has would be shared not only with the driver but with the 
businesses as well.
    Mr. Souder. How do business representative feel about that?
    Mr. Andersson. We agree wholeheartedly. In fact, there has 
been, I think there was a lifetime ban on abuse prior to 
September 11th. One additional feature that we learned from our 
local dedicated commuter lane guru in the INS, Ron Hayes, with 
the new technology the INS, if they are going to be 
administrating agency, can turn on and off cars, if they learn 
about an abuse of the system afterward. I think it is 
additional security feature.
    Mr. Souder. One of the problems we have is in the--
Champlain was the biggest drug bust in that border's history. 
Somebody using accelerated pass. Trucking company claimed that 
they did not know that the driver was doing it. He freelanced, 
so would you take that trucking company's privileges away?
    Mr. Shaffer. It would be on a case by case basis.
    Mr. Souder. How? Obviously every company is going to say 
the individual was freelancing. Does this mean the company 
would have to have access to the clearance information?
    Ms. Meredith. I would suggest, Mr. Chairman, if I may, that 
our legal systems do allow people to appeal decisions that are 
made. And if there was evidence, strong evidence, to show that 
the trucking company and driver, and truck company and perhaps 
the manufacturer whoever was, had no idea. But I do think there 
has to be a connection between--the onus should be on the 
person hiring the trucking company to make sure that they're 
using persons of high.
    Ms. Preshaw. But remember that when we are talking about 
the border what we take for granted in terms of due process 
does not necessarily apply. And perhaps there could be a 
safeguard built into the system to protect it in the border. 
Perhaps that is what should be done. Or maybe there should be 
like a three strikes you are out rule.
    Mr. Andersson. Add a little bit. There is not currently a 
pacing for trucks. Also we do support one, so in terms of what 
we are contemplating, NEXUS now is just business traveler, so 
they would be individually liable for their own cars in any 
event.
    Mr. Souder. Right. But I understand that and San Diego and 
other places we have experimented with flexibility for Congress 
and moving it if you were a regular person. Some--in Detroit, 
there are some that go back and forth 17 times in a day. And 
trying to figure out how to address that system and yet still 
hold somebody accountable and somebody has been in business. It 
is not an easy thing to work out. Fine to say, we are going to 
hold somebody accountable. At the same time you don't control 
your employees. On the other hand, don't even ask the question, 
you are not held accountable because then you have deniability. 
Three strikes you are out may work to some degree for some 
things. Certainly does not work if one of the three strikes was 
a terrorist that came and blew up the World Trade Towers. It is 
a difficult question. It is because we all agree with the 
concept, making the concept work.
    A second problem on the--and I believe that is one that is 
fixable, but the business community needs to understand that 
there is an element of risk with this, and that if it is, if 
there is an abuse and we grant it, we accelerate the process 
and bring NEXUS into more, at least the major interstate 
crossing. If there is one anywhere in that border, the whole 
system is going to fall apart and retribution aspect, if it was 
a major breakdown it is going to be huge, in that our political 
pressure in the United States right now is zero tolerance, 
which is, impossible to achieve, and yet that is the political 
standard.
    Attorney General, reason he keeps saying it is a risk this 
weekend, Rick says it is a high risk, is one failure and 
they're out. Because American people are being relatively 
tolerant. OK. You couldn't catch them September 11th, but they 
are not going to tolerate a second round; and, therefore, the 
political pressure on all of us is so high. It is why this 
stuff is moving very slowly.
    Leads me to the second point. The other problem with NEXUS 
system is not with the Canadian side of the border. It is our 
intelligence systems are not interconnected in that what we 
know, for example, of those 19, to degree, and I assume that 
the one or two that moved across the United States, in fact, it 
looks like they may have moved back and forth four or five 
times and the others may be in the process. We were not 
tracking it so we don't know. That has caused a different 
attitude in the Congress as to how fast we are going to do the 
NEXUS because we are not confident that our intelligence 
systems right now are sophisticated enough to catch it as 
opposed to the actual agent at the border watching. And so, 
that is partly--it is not just a function of cost, which is a 
function or a function of, can we implement it in a sense of 
would it work on almost all cases?
    But in a zero tolerance case, looking at whether our 
intelligence systems are ready and have all of the information, 
the Canadian border person, the Border Patrol is based in 
Burlington, VT. That is a long way from here in trying to 
figure out how to get that information in a system. Anyone want 
to comment on that?
    Mr. Andersson. Mr. Chairman, there are two dedicated 
commuter lines that remain in operation after September 11th. 
One is (inaudible) at our airports, use of biometrics. The 
other is Century in San Diego that you mentioned. Both of them 
are virtually identical to the NEXUS program. So, we say there 
may be precedent. In any event, it would be inconsistent to 
leave those two running and not allow us to have NEXUS.
    Ms. Meredith. Mr. Chairman, if you would allow me to refer 
to my written submission, if you read the written submission, 
you will find that it goes into greater detail of how a system 
could be used. I agree with you 100 percent that part of the 
problem is that the intelligence is not shared in real time. It 
is not shared here between Canadian agencies nor is it in the 
United States. What we need to do is figure out a way of 
getting that intelligence into a central data base that is not 
sharing the reasons why, but the names of persons of concern 
and the names of persons who are pre-cleared so they have real 
time delivery with biometric readers. So that somebody comes in 
L.A. airport, the whole continent knows whether or not that 
person is being pre-cleared or person of interest.
    I think that our concept of a civilian NATO would function, 
bi-national agency with all the various intelligence and 
policing agencies represented in that agency could deliver 
intelligence throughout the continent in real time. And having 
that at our disposal would certainly support a program like 
NEXUS. Not saying NEXUS is perfect.
    My concern is whatever system we use, has to be used across 
the continent and has to be used in the perimeter of the 
continent so it is one system. Problem we have now is every 
agency has its own system. They don't talk to each other. The 
delay in talking to each other in the process is set in place. 
Just allow individuals to come into our continent and 
disappear. We have got to make sure that does not happen. I 
think the proposal I put before you in the written submission 
that I think is worth developing. And certainly seen support 
when I was in Washington last week and bringing it before the 
Department of Transportation, FAA and other agencies. Certainly 
the interest is there.
    I think if we put our resources, combine our resources, and 
come up with a good product is much better than everybody going 
off and support different products that still don't talk to 
each other.
    Ms. Preshaw. I want to add, the Vancouver business 
community fully supports the perimeter clearance concept that 
Val has just discussed.
    Mr. Larsen. I want to ask the same question twice. I want 
you to put your Canadian citizen hat on. Has to do with 
language that perhaps we use in the United States about 
harmonization or compatibility of policies. My point of view, 
the fact is that we are dealing with a new kind of enemy that 
does not recognize traditional definition of sovereignty. The 
terrorists who attacked the United States don't necessarily 
identify themselves with any one country but with a thought. 
And so, if we are dealing with that new kind of threat, does 
not recognize traditional definition of sovereignty, how much, 
from a Canada citizen perspective, how much sovereignty, I 
suppose, are you willing to consider relaxing to help deal with 
that threat? And I ask that question because it is the same 
question, someone asking ourselves in the United States, how 
much privacy rights do we give up, civil liberties? Where is 
the envelope end on that? Can you help me understand that?
    Ms. Preshaw. Well, certainly is a slippery slope, but 
nevertheless, I--the feedback that I am hearing from my 
Canadian friends and business acquaintances as such is 
notwithstanding some of the comments that have been made by, I 
believe, Christian, and Emily, couple of weeks ago, most are 
feeling that we are now North America. And we still retain 
here, well, up there in Canada, certain concepts and freedoms 
that are different from those of the United States, and there 
is no reason why we can't retain those up there.
    But, security is a pressing concern, and I believe that 
both countries are willing to make some sacrifices in terms of 
perceived sovereignty issues and in terms of some personal 
liberties that we have all taken for granted. I believe most do 
envision that sacrifice will be demanded and will be gladly 
given. You will hear some kicking and screaming, but in the end 
I think that people will feel well served if we can ensure 
continental security.
    Mr. Larsen. Val, ask the same question of you.
    Ms. Meredith. Yeah. I think the concept of sovereignty is a 
perception problem. What Canadians perhaps don't understand is 
that every state, including Canada, has the right to ask every 
individual who comes to our country questions. Any number of 
questions. Most of them, if not all of them, very personal 
questions. That is the right of the country when somebody wants 
to come into it.
    For Canadian travelers, having just gone through a little 
study from the airline industry perspective, 94 percent of 
Canadians are already pre-cleared, pre-screened in our airports 
before they enter the United States. So U.S. authorities 
already have some fairly personal information about us before 
we even get on the airplane.
    Now, there is some concern about more invasive information 
that will be asked to be shared. And I think that in the 
proposal that I made, it is voluntary. If somebody wants to sit 
in a 5-hour line up, that is their choice. If they choose not 
to, they are voluntarily giving up that information to whoever 
is asking, whether Canadian or American authority.
    I think as far as a nation is concerned, if the information 
is not necessarily being shared, if the integrity of the RMCP 
information is still held in Canada, but the names of the 
people that they might have of interest are in the central data 
bank, and the same with the CIA, if the integrity of their 
information is maintained in their nation, then it is not a 
question of challenging sovereignty. I think there is a way to 
get around it. I think that we have done it before. I use NORAD 
as a great example. I think the sovereignty issue is perhaps 
misnomer, that it is concept as opposed to reality.
    And I agree that Canadians see themselves on a continental 
basis. I think Americans now almost see themselves on 
continental basis. And I think there is a greater willingness 
now than there was pre-September 11th to deal with that--that 
wider perspective that we are family, that we are neighbors, we 
are allies, and it is time we started working together in a 
very real sense. The threat against your security is a threat 
against our security, and I think we realize that.
    Mr. Andersson. I see the light is red. Let me just add, in 
1999 Canada passed pre-clearance act which cedes' sovereignty 
over certain space in our airport, our pre-clearance area. It 
does not go to the extent to permit gun carry, but it allows 
almost all other law enforcement activity to be carried out in 
those places.
    And in addition, following Attorney General Ashcroft's 
visit to Canada recently, there may be some movement afoot to 
share CCRA data bases, and it would be very easy to. I mean, 
you have just seen yourself, the whole 110 debate, if you 
logged into the Canadians returning to Canada, check in with 
Customs on data base, and it is very simple to do. CPICK, the 
Canadian police checks, have been shared with INS and the 
Customs authority in the United States for years already. So 
most Canadians, if they don't know it, it won't hurt them. And 
you won't offend their sensibility.
    Mr. Larsen. For Mr. Shaffer. Do you see a difference in the 
hit the smaller businesses are taking versus larger?
    Mr. Shaffer. Absolutely. We have been talking to a lot of 
businesses in the area in the last few weeks, and it is the mom 
and pop business being hurt the most. I find that the much 
larger enterprises are actually doing a little better than last 
year at this time. But the small businesses, and not only the 
small ones, but what we were talking about this morning in our 
chamber meeting, something came up that was really, I didn't 
realize was happening is that the high end restaurants are 
suffering very much, but the fast food restaurants are booming 
so there is something saying there. The people are saving their 
money and just waiting day by day to see what is going to 
happen next.
    Mr. Souder. Why would the larger businesses be up?
    Mr. Shaffer. I think the larger businesses are businesses 
where people need those things, not boutique where you go to 
buy something you just think you might want, but the larger 
businesses, and of course right now people are buying hard 
items. And automobiles are up because of the low rate for 
financing. A lot of companies are offering zero financing. 
Homes are selling 50 percent from a year ago because the 
mortgage rates are the lowest in 20 years.
    Mr. Andersson. I want to note a comment. When I met with 
business owners up at Point Roberts, the market place business 
was down 50 percent. Gas stations down 50 percent. Restaurant 
business 50 percent. It was very consistent, and maybe they 
meant beforehand and said, use the 50 percent number, but by 
the same token, I don't think they did. It is clearly 
comparing--when they compared September 1 to September 10, 2001 
to 2000; and then September 12 to the date or day before the 
meeting 2001 to 2000, and clearly showing the direct impact of 
the line up at the border.
    Mr. Souder. So----
    Mr. Shaffer. Everybody's waiting to see what is going to 
happen, and that is why all of us are--that we get a NEXUS 
program as soon as possible that is efficient but secure.
    Mr. Souder. Is 35, 40 or 50 percent right around the 
border? Has it gone down in Vancouver as well? Is it 
proportionally less impacted at the border?
    Ms. Preshaw. No. It is very bad in Vancouver, what has 
happened. Even though the Canadian dollar is so low, and let me 
tell you, there are some major bargains to be had. It is--
nobody is coming. Nobody comes up. One time I came up, because 
I come up every other week, usually on Wednesday, I got to the 
Canadian border. There was no one there. And I had three Custom 
guys all to myself. One was chatting with me; other looking 
inside my car; and the third one, poor man, had to look in my 
trunk, and, you know, that was it. I was the only one. So I 
went up there, and I did my Canadian patriotic duty by buying 
lots of goods and bringing them back to the United States. 
Merchants are so glad to see anyone, but especially an American 
because we are virtually a nonexistent species up there now. 
And it is because the border is perceived as being a barrier, 
and not so much coming into Canada but trying to get out that 
is the problem.
    Mr. Souder. You have any number, what this might be 
elsewhere?
    Ms. Preshaw. Well, typically, Whistler would be the next 
destination beyond Vancouver, and my understanding is 
definitely the numbers are down at Whistler also.
    Mr. Souder. Mr. Andersson, do you represent manufacturers 
as well?
    Mr. Andersson. Yes, sir, we do.
    Mr. Souder. And you heard about how the trucking companies 
are being impacted. Have you seen any manufacturing drop off? 
And can you tell has that drop off--let me ask the question 
several parts and you sort out which way you want to answer it. 
That we clearly had a softening of the economy about a year ago 
in the United States, so we were already having a trend line 
that was building. September 11th seems to have--simplest thing 
is to look at our stock market. Bottom fell out. Now it is 
almost back to where it was pre-September 11th, but still soft 
and certain part of that. Is it a similar pattern in the 
manufacture and retail? What are you kind of seeing as the 
impact? Probably trying to sort out what is the economy and 
what is the border.
    Mr. Andersson. The Coalition for Secure and Trade Efficient 
Border is Secretary is the Canadian Manufacturer of Exporter's 
Association, who have compiled statistics which I could try to 
give you back, but I think if you wanted to send that question 
to us we could provide you with very real particulars.
    Mr. Souder. Also we may stay in touch with that to get a 
moving target to try to separate the questions. Intuitively you 
feel that the border is having a big impact and we all knew 
that. It is hard to quantify that as we are hearing different 
numbers at different border crossings across the country.
    Ms. Meredith. My understanding, Mr. Chairman, when I was 
talking to some Customs people, the flow itself, the number of 
persons going using the border crossing has gone down since 
September 11th. The numbers are down, I understand, 20, 25, 30 
percent, so we are not dealing with the volume that 4 hour line 
up. We are not dealing with volume we used to have. It is a 
reduced volume.
    Mr. Souder. I want to do something a little different for 
just briefly. Mr. Hardy, could you come back up? I am not going 
to put you under these questions. You may have to come back, 
but if you could come up, I want to ask you a question or two 
on the--if you could also on the numbers of what Customs has 
seen on the trade.
    Ms. Faron. Thank you----
    Mr. Souder. And I need to swear you in so I can put it in 
the record.
    [Witnesses sworn.]
    Mr. Larsen. Could you spell your name for the record.
    Ms. Faron. F-A-R-O-N. We just got our figures from fiscal 
year 2001, and the truck numbers are down maybe 100,000 from 
fiscal year 2000, cars are down about 200,000 from last year.
    Mr. Souder. What was it.
    Ms. Faron. It was 3.3 million in 2000, cars. And it is 3.2 
million so 500,000 down in fiscal year 2001 for cars in Blaine. 
That is just Blaine we are talking about, the two crossings in 
Blaine. And trucks in 2001 about 520,000 and last year it was 
about 490,000.
    Mr. Souder. Did most of that drop seem to be in the last 
month?
    Ms. Faron. I know for cars, they were down almost 40 in the 
last 2 months and the numbers of crossing compared to last 
year.
    Mr. Souder. But you don't know trucks for sure. Could you 
get that?
    Ms. Faron. Yes.
    Mr. Souder. And Mr. Shaffer had said that sometimes going 
north five lanes were open and going south sometimes only two. 
Is that personnel problem or is it a----
    Ms. Faron. It would normally be personnel. I think we have 
usually had more than two lanes open, but it is a matter of 
staffing. When we have staff available. We open as many lanes 
we can with the staff we have.
    Mr. Souder. Do you have a request in for more staff to open 
more lanes? The reason I am asking the question is for all of 
the talk about 90 days, we are not going to get FBI and the CIA 
to talk to each other in 90 days--[laughter]; (unintelligible) 
it is not, in addition to getting the machinery and all of that 
kind of stuff up, we have to figure out other types of ways to 
short term deal with it. Do you have a request in to get 
additional help so more lanes can open on the weekends?
    Ms. Faron. We just got nine additional bodies. Half of them 
are at school, so they won't be here until February. And when 
the new appropriation, State of Washington is getting 30 
additional bodies. I don't know how that will shake out for 
Port of Blaine, but we will be getting more.
    Mr. Souder. Do you see the Guard being able to relieve any 
of those functions to be able to open up lanes by not having a 
Custom Inspector?
    Ms. Faron. I can see them helping at the ports that are 
normally closed. They could help secure staffing then, and that 
would free up inspectors to do other things.
    Mr. Larsen. Just a comment on the National Guard. Some--
support moving the National Guard up here, but as a supplement 
and not a replacement for what we need here in terms of full-
time staffing. Even the National Guard is going to be tested in 
terms of their ability to devote their time and resources as 
well.
    Mr. Souder. The function--in reality, what we are trying to 
do is figure out multiple tiers here. One is a longer term, 
which is more technology plus some plusing up of staff. To the 
degree we can do joint things, that will be great. That is 
where we are clearly headed between the two Parliaments and 
Congress, and the Commission. And when I was in Ottawa meeting 
with Solicitor General, Judiciary Committee and chairs trying 
to look at that and there is general agreement to try to do 
these kind of things.
    We also short term problem. Short term it's, we are moving 
people in different ways. The Guard is really a combination 
until you can get permanent agents and/or equipment, they're 
not a long term solution. And we are wearing the Guard out all 
over. And also, quite frankly, while it gives some semblance of 
psychological security to some people and hopefully 
intimidates, it is not particularly comfortable at an airport, 
necessarily, to have people wondering around with automated 
rifles and machine guns or whatever either. It is not--yet at 
the same time a lot of what we are battling right now is 
psychological in these trade questions. Some of it is real in 
the sense of back up. And some of it is, I am worried there is 
going to be a line. I am worried that my airplane is not going 
to be safe. So we are trying to deal both with the 
psychological problem and the real problem. And to the degree 
we can figure out how to address the real problem, we are 
clearly not going to back off short term even a year, if ever, 
on the security clearance, so we have to figure out a way to 
address the other.
    Ms. Preshaw. Psychologically, it would certainly make 
everyone feel a lot better to have every single booth manned at 
those high travel times. I have never seen that.
    Ms. Meredith. I would like to take this opportunity, Mr. 
Chairman and Congressman Larsen, to thank you for having a 
Canadian delegation appear before you. I think it is very 
important that we keep the dialog going between Canada and the 
United States. And thank you for very much for the opportunity.
    Mr. Shaffer. I would thank you gentleman also.
    Mr. Souder. Thank you. Our nations are so incredibly 
interconnected and getting more so. We will always maintain our 
independence and all have our own little things that we are not 
about to give up our sovereignty about. But our trade 
interconnection is huge, and it's not just business trade. It 
is having do with the 1,400 nurses that come across from 
Windsor to Detroit. And all of a sudden they were being held up 
and the hospitals were not able to treat people. Tourism. One 
of the things I joke about in our Parliamentarian session are 
that our Florida Congressman probably have bigger, more 
Canadians in their districts then the write-ins in Canada that 
we have become so interconnected. So I appreciate you 
participating.
    If the third panel will come forward: Honorable Georgia 
Gardner, Mr. Pete Kremen, Mr. Jim Miller, Ms. Pam Christianson, 
Mr. Barry Clement, and Mr. Jerry Emery. Remain standing.
    Mr. Souder. Senator Gardner, have you lead off.

   STATEMENTS OF GEORGIA GARDNER, SENATOR, WASHINGTON STATE 
  SENATE; PETE KREMEN, WHATCOM COUNTY EXECUTIVE; JIM MILLER, 
    EXECUTIVE DIRECTOR, WHATCOM COUNCIL OF GOVERNMENTS; PAM 
  CHRISTIANSON, PRESIDENT, BLAINE CHAMBER OF COMMERCE; BARRY 
CLEMENT, PRESIDENT, NATIONAL TREASURY EMPLOYEES UNION, CHAPTER 
 164; AND JERRY EMERY, VICE PRESIDENT, AMERICAN FEDERATION OF 
      GOVERNMENT EMPLOYEES, NATIONAL INS COUNCIL, LOCAL 40

    Senator Gardner. Thank you. I appreciate the opportunity to 
speak to you today and present materials regarding border 
issues. I am happy to have you in my community, and it is my 
home town. For the record, I am Georgia Gardner. I am the State 
senator for the 42nd District, which is about two thirds of 
Whatcom County, and I have five different international border 
crossings in my district.
    I am a resident in Blaine, and I have also owned a business 
in Blaine, and I am a Certified Public Accountant in the United 
States and chartered accountant in Canada, so I deal primarily 
with cross border individuals and businesses. So I have been an 
observer as well as a neighbor of this border for many, many 
years.
    Prior to my 5 year service in the State legislature, I 
served 8 years on the Blaine City Council.
    I have been very involved personally professionally, 
politically with the problems involved in being located on an 
international boundary. Our border communities are small towns 
just across the line from a huge population of the lower 
mainland of British Columbia, and I think this is mostly true 
of the Canadian, U.S. border clear across the country. In many 
ways British Colombians are partners in our economy, our best 
customers, and a great source of employers and employees.
    Because jobs are limited in our small communities we have 
significant number of our residents who regularly work in 
British Columbia. We also have a large of number of B.C. 
residents that work in our business here.
    St. Joseph Hospital in Bellingham, which is one of our 
largest employers in the county, is a 253 bed level 2 trauma 
center with 1,800 employees, 100 of whom live in British 
Columbia. And these workers range from physicians to nurses to 
housekeepers, technicians. And St. Joseph is dependent upon 
their ability to cross the border to get to work. Lives 
literally depend on them. I am attaching a letter from the 
hospital which more completely explains their concerns. Their 
story is much the same as other employers here in Whatcom 
County. Businesses depends on their employees' ability to get 
to work, and the individuals need to get home at night to spend 
time with their families.
    We also depend on British Columbia customers as you heard 
from many of us here today. We have traditionally enjoyed a 
large number of our Canadian neighbors visiting to shop, eat in 
our restaurants, to buy gas and groceries. They stay in our 
resorts. They catch our trains and planes, and many own 
vacation property in our community. It is been a great 
partnership. They have the population, and we have the goods 
and services.
    With the difficulties at the border, traffic south just is 
not moving. We have experienced a 60 percent or greater drop in 
retail businesses, and our restaurants and resorts are empty. I 
believe you stayed at the Inn at Semiahmoo. That has been a 
huge source of tax revenue for the city of Blaine, and we 
greatly miss their high occupancy rate. One of our businesses 
here in Blaine, International Cafe and Motel, has had to reduce 
its work force by two-thirds. That is a serious loss to a small 
community. This, unfortunately, is the norm. We are going to 
begin to lose businesses and jobs very quickly unless we can do 
something to increase the flow of traffic across the border.
    We also have a lot of our products to take into Canada to 
sell. In fact, most of the Washington exports to Canada are to 
British Columbia. Again, we need to get them across the border 
to make a sale. Again, I am attaching a background sheet from 
the Washington State Commission on Trade and Economic 
Development. It gives more detail and statistics on trade and 
tourism between Washington and British Columbia.
    I am very concerned about the four mainland border 
crossings in Whatcom County (Peace Arch Crossing, Pacific 
Highway Truck Crossing here in Blaine, the Lynden-Aldergrove 
Crossing and the Sumas Crossing). But I want to say a special 
word about Point Roberts. I think historically when the folks 
back east decided to make the boundary between Canada and the 
United States the 49th parallel, they didn't look at the map to 
see that little peninsula that has that tip that dips below the 
line.
    Point Roberts is a 5 square mile piece of the United 
States, that is for all intents and purposes at this point 
completely cutoff from us. There are about 1,300 permanent 
residents. They are part of the Blaine School District. And the 
grades four through high school must come to Blaine. The 
problems at the border not only impact the school busses which 
must cross twice in each direction, but they also impact the 
ability of the students to participate in extra-curricular 
activities and parents' ability to volunteer at the school. Our 
greatest concern is for students who are sick or injured and 
the parents can't get to them to take them home or to authorize 
medical attention.
    We need help at the borders and we need it as quickly as 
possible. First, we hope that we can keep the full complement 
of personnel now assigned. We need the National Guard troops to 
assist, but we don't want to lose any of our existing 
inspectors. We need to open additional inspection lanes.
    We need to reinstitute the dedicated commuter lane that you 
heard so much about this morning. And I would ask that the 
first priority in reinstating this is to give Point Roberts' 
residents and persons employed in Washington, while resident in 
British Columbia, first priority for getting clearance. Second 
priority should be for the visitors and commercial travelers. I 
know these folks are willing to go through whatever screening 
is necessary to have their free passage restored, and I hope we 
can move forward quickly with that.
    Finally, I do want to mention that our small county has 
exceptional criminal justice expenses because we have to 
prosecute the cases at the border. Whatcom County has been hit 
especially hard with the recession. We simply do not have the 
ability to cope with the budget that is attributed to the 
border. I have attached a statement from Whatcom County 
Prosecuting Attorney David McEachran which will give you 
astonishing figures. We are looking at approximately $2.3 
million of our criminal budget that is directly attributed to 
the border.
    We appreciate the additional security at the international 
boundary, and we support it. No one knows as well as we do the 
problems of living on the border. And we want to cooperate in 
any way we can--as we have in the past. We are used to being 
additional ears and eyes for the Border Patrol and other 
authorities. We understand crossing the line will never be what 
it was once. We very much appreciate the work you are doing and 
we appreciate the fact you have come to our community to talk 
with us. And I would be happy to answer any questions you might 
have.
    [The prepared statement of Senator Gardner follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.047
    
    [GRAPHIC] [TIFF OMITTED] T2583.048
    
    [GRAPHIC] [TIFF OMITTED] T2583.049
    
    [GRAPHIC] [TIFF OMITTED] T2583.050
    
    [GRAPHIC] [TIFF OMITTED] T2583.051
    
    [GRAPHIC] [TIFF OMITTED] T2583.052
    
    [GRAPHIC] [TIFF OMITTED] T2583.053
    
    [GRAPHIC] [TIFF OMITTED] T2583.054
    
    [GRAPHIC] [TIFF OMITTED] T2583.055
    
    [GRAPHIC] [TIFF OMITTED] T2583.056
    
    Mr. Souder. Thank you very much for your testimony, and we 
will insert it into record, all your additional comments. I am 
convinced listening to westerners fight over water when in the 
Midwest we are always flooded, that the original goal of the 
29th was California was going to build a canal and drain that 
portion and then it would have been connected.
    Mr. Kremen.
    Mr. Kremen. Correct. Thank you, Chairman Souder and Mr. 
Larsen. I want to thank for the opportunity not only to address 
you today, but the fact that you are both here as Senator 
Gardner, just a couple of seconds ago, the fact that you are 
here and it is obvious to me and I am sure everyone else in 
this room that this is not what some might say would be a dog 
and pony show. You are actually here. You are sincere and 
genuine in hearing what our comments and suggestions are, and 
it is apparent that you, Mr. Souder, that in your travels in 
other border areas of the country have really been listening, 
and I am very impressed.
    I really don't have any prepared oral remarks because I, at 
the urging of President Bush, took a 2-week trip on an airplane 
and arrived literally hours ago. My first 2 week vacation in 26 
years. And I have an executive assistant who is extremely 
sensitive and compassionate and never called me to let me know 
that this was on my first day back. But let me have a feeble 
attempt at giving some oral testimony for your information and, 
hopefully, to benefit not only this community but the county as 
a whole.
    The recent terrorist attack severely crippled not only the 
border area, but a lot of the country, but particularly this 
county. And I say that because this county is relatively small. 
When you compare it with the other two large ports of entry on 
the northern border, Detroit and Buffalo, we are extremely 
small. We have a population in Whatcom County of about 172,000, 
and we have up to 26 million crossings a year. Currently I 
think we are at about 15 million. That is an awful lot of 
traffic for a community the size of Whatcom County. So we have 
been inordinately affected by the events of September 11th, and 
when you add the local economy and the national economy to our 
overall economic climate, it is extremely weak, and that is at 
best.
    We have, because of the, in spite of the fact that we 
produce about a third of the power consumed by the city of 
Seattle in Whatcom County, we had two of our largest employers 
shut down. One permanently, Georgia Pacific, 420 employees 
there. That is our sixth largest employer. Our second largest 
employer is still in idle mode. They are not producing 
aluminum. It is Alcoa. That is over 1,000 employees. Second 
largest employer in the county. When you add that all together, 
we need some help.
    Border staffing is essential, and it needs to happen 
quickly. I appreciate the efforts of the good Congressman from 
Everett who represents the Second Congressional District. He is 
doing just a splendid job, especially when you consider this is 
your first term. And I am very grateful for everything you have 
been able to do, including the Pipeline Safety bill.
    And Congressman Souder, I also want to thank you. This has 
meant a lot to this community.
    But we need help, border staffing quickly. And you have 
heard about NEXUS, the dedicated commuter lane. That has to 
happen, and as quickly as possible. And one thing I want to 
bring to your attention, is that I do not believe, contrary to 
INS, that this is a premium service, and therefore, we need to 
charge for it. I think the charge would be counterproductive, 
especially if the charge were anything less--or more than 
minimal. The purpose of getting this done is to move commuters, 
screen, background check, across that border with ease and in a 
timely matter; and dedicate the resources for security where 
you need them. And so I submit to you that this is not a 
premium service. This is a service to help this country enhance 
and improve our security. And I hope you can look at this issue 
with those remarks when you are facing the deliberation hour.
    I also would like you to consider that perimeter clearance 
is something that I believe ultimately long-term is something 
we should be doing. The mayor of White Rock, British Columbia, 
on the other side of the border, Hardy Staub, is also chair of 
the Greater Vancouver Regional District, has been working with 
me and others to encourage Canadian officials in Ottawa to see 
the value of perimeter clearance as well as adopting the joint 
NEXUS system. So this is a bi-national reference.
    And I also want to commend you again for taking the time 
and really listening to what we have to say, and I just want to 
encourage you to use your wisdom, your courage, your resources 
to the best of your ability so this community, as well as the 
rest of the country, come out the better for all of the 
adversity.
    [The prepared statement of Mr. Kremen follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.057
    
    [GRAPHIC] [TIFF OMITTED] T2583.058
    
    Mr. Souder. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you Mr. Chair, Congressman Larsen. My 
name is Jim Miller, and I am the executive director of the 
Whatcom Council of Governments, a regional planning 
organization as well as the federally designated Metropolitan 
Planning Organization for this region. I would like to thank 
you for your invitation to testify before you today. Today I 
would like to discuss the importance of secure, cross-border 
transportation for this bi-national region.
    The United States and Canada are each other's largest 
trading partner. This relationship holds true for most U.S. 
States as well--37 States have Canada as their primary trading 
partner. That is a show stopper. I noticed on your committee 
list here, I believe about 17 States that are represented--over 
twice that many States have Canada as their largest trading 
partner. So while my comments today focus on the border's 
relevance to this community, the way our shared border is 
realized and managed by both Federal Governments is of national 
as well regional significance.
    Whatcom County and Lower British Columbia are joined by a 
set of border crossings often referred to as the Cascade 
Gateway. This area has prospered from a long history of social 
and economic ties. Families, jobs, shopping, and recreation 
cross the border. As a result, Blaine is the third busiest auto 
crossing on the Northern border and the fourth busiest 
commercial crossing.
    Border-related responses to the September 11th terrorist 
attacks aimed at critical security concerns, are, as currently 
staffed and supported, impairing the trans-border activities 
that characterize the region's people and businesses. Key 
aspects of the post-September 11th border include: Level-one 
alert status--meaning longer and more detailed inspections with 
two inspectors in each lane. There is no time line for 
returning to a lower alert level. Two, the region's pre-
approved traveler programs, PACE and CANPASS, have been shut 
down. Before September 11th, approximately one-third of 
Interstate 5 border traffic crossed by way of these expedited 
dedicated commuter lanes.
    Our enrollment compared to a combination of all of the 
other DCL's in the country, and then you add all that up and 
maybe multiply by two you still have more enrollees out here. 
It has been tremendously successful.
    These changes to inspections policy by both countries and 
the resulting border wait-time (2-3 hours during peak travel 
periods), have resulted in steep declines in regional, cross-
border travel. October 2001 automobile crossings here in Blaine 
have been cut in half, actually down 46 percent compared to 
October 2000.
    Why do people in this region cross the border? A study 
completed by the Whatcom Council of Governments last year 
answers this question. About one-half of trips are made for 
recreation, about a third for shopping, and almost one quarter 
of trips are for work. All of these trips represent financial 
and social transactions that Whatcom County is built on. Since 
September 11th, half of the trips are not being made.
    One institution hit hard by new border policies is our 
regional hospital. Senator Gardner touched on it also. St. 
Joseph's Hospital in Bellingham employs a large number of 
nurses and other professionals who commute from Canada. With 
Level-one status and the shut down of PACE and CANPASS--which 
most cross-border commuters used to avoid backups--the hospital 
has scrambled to deal with new border transportation challenges 
and maintain patient care. And, the medium-term likelihood is 
that, without a return shorter trip-times, the travel costs of 
cross-border commuting will eliminate a labor market that 
employers in our community depend on.
    Our heightened focus on land border security will not be 
sustainable if it trades on our social and economic 
relationships.
    In the near term, the Whatcom County-Lower Mainland B.C. 
region desperately needs the following: One, enough Federal 
inspection agency staff to open all of the inspection booths 
that are currently built here--both for passenger and 
commercial traffic. Two, the reinstatement of a pre-approved 
travel program. Three, continued development and installation 
of pre-arrival clearance systems for cross-border trucks. Four, 
infrastructure to support secure, pre-arrival processing and 
clearance for both trade and travelers.
    Meeting these needs depends on coordinated support from 
multiple sources.
    Efficient levels of staffing for ports of entry will 
require increased funding. Unified port management would also 
improve staffing efficiency.
    Pre-approval of goods and people, a vital component of a 
secured-mobility future, will depend most on interagency and 
international enforcement integration.
    And funding for border infrastructure and operations should 
be increased in next year's USDOT border program. The upcoming 
reauthorization of TEA-21 should also include increased funding 
for borders.
    The ultimate, near-term goal should be secured mobility 
through dramatically improved integration. The United States 
and Canada need to establish standards on continental security, 
harmonize and integrate intelligence and enforcement, and 
consequently diminish dependence on our shared border. In the 
United States, the border and border agencies are currently the 
focus of several reform proposals. During this window of 
opportunity, I urge Congress to pursue policies that recognize 
land-border ports of entry as distinct environments, enhance 
agency functions that are interdependent, and unify functions 
that currently overlap.
    In conclusion, I am encouraged by several developments over 
the last few weeks, such as: The recently signed Joint 
Statement of Cooperation on Border Security and Regional 
Migration Issues--I did sign this last Monday.
    And also the Senate Defense Appropriations bill which 
includes significant funding for INS, Customs, and Northern 
border facilities and technology.
    These developments, while prompted by tragedy, provide an 
unprecedented opportunity to improve our nations' security by 
being strategic and cooperating more. If we allow our U.S.-
Canada border to grow as a barrier rather than managed its 
maturation as a critical part of a broader strategy, we will 
trade our sustenance for our security.
    Again, thank you for the opportunity to express these 
perspectives for this region. I am happy to take any questions 
you might have.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.059
    
    [GRAPHIC] [TIFF OMITTED] T2583.060
    
    [GRAPHIC] [TIFF OMITTED] T2583.061
    
    [GRAPHIC] [TIFF OMITTED] T2583.062
    
    [GRAPHIC] [TIFF OMITTED] T2583.059
    
    [GRAPHIC] [TIFF OMITTED] T2583.060
    
    [GRAPHIC] [TIFF OMITTED] T2583.061
    
    [GRAPHIC] [TIFF OMITTED] T2583.062
    
    Mr. Souder. Thank you very much.
    Ms. Christianson.
    Ms. Christianson. Chairman Souder, Congressman Larsen, and 
in Blaine we can't thank you enough because you have come so 
far, and I honestly didn't think this was a formal thing when I 
agreed to do this. I thought it was just another hearing. It is 
not.
    Mr. Souder. If you make a false statement under oath, it is 
not more than 5 years.
    Ms. Christianson. Well, it is not my fault. Mail said that 
I had to turn it into our street address and post office sent 
it back, so it is not my fault.
    In recent history Whatcom County, and particularly our city 
of Blaine, WA, have been hit by some hard times. In the last 2 
or 3 years we have witnessed the decline of the Canadian dollar 
and the impact it has had on our small community. In the last 
year we have seen two major manufacturers and employers--
Georgia Pacific and Alcoa Intalco Works--close their facilities 
due to rising costs of doing business in our county. And now in 
the last 3 months we have experienced the aftermath of the 
September 11th attack.
    With the attack of our country came increased border 
security which literally brought our small town to a 
standstill. We are a community that relies a great deal upon 
business from our Canadian neighbors. Since the 11th, Blaine 
businesses report their sales being down almost 75 percent. One 
business had to lay off 13 of their employees. Restaurants and 
gas stations are probably the hardest hit but every business in 
town is feeling the effect.
    Out city has one of the most beautiful marinas in the area 
and approximately 65 percent of the slips are rented by 
Canadian tenants. After the 11th, several boat owners have 
moved their boats because they were unable to get across the 
border to check on them. Now we are into winter, and they don't 
come down as often. It is not as big an issue. When spring hits 
they want to come down and use their boats, they won't have 
access.
    A large number of our Canadian residents own weekend/
vacation homes in Blaine and Birch Bay. These property owners 
are already dealing with the decline in their dollar and now 
difficulties in crossing the border to get to their homes. This 
seems to be the last straw and people are stating that ``It's 
just not worth it anymore,'' and they are putting their homes 
up for sale.
    As Georgia was saying, our school district is affected. The 
children of Point Roberts have to go to four times a day. Two 
coming and two going. Now the school busses have priority, so 
that is not--but the kids who are old enough to drive their own 
cars don't get that priority.
    As we all heard, we want PACE open.
    Mr. Anderson, of Mr. Larsen's office, spoke at our Chamber 
last week and explaining that if they reopened it, it would 
heighten security. If a third of the people are going through, 
you are not going to speed anything up, and so we understand 
that.
    Another area of concern is the truck crossing. It is not 
just truck crossing coming from Canada to the United States. In 
Blaine they back all the way down around down the freeway, so 
you have truckers that are not willing to go to Point Roberts. 
In our business we accept deliveries for the lumber yard in 
Point Roberts, and then they send a truck down or they have 
somebody come and get it. The other day we ordered some fence 
panels for them. It took him 2\1/2\ hours to deliver our fence 
panels. I believe UPS does not go to Point Roberts. So they're 
really suffering.
    Again, it is not just us. It is White Rock. People are not 
going up there. They have wonderful restaurants but nobody is 
going. Nobody wants to wait. While things are definitely slower 
in our community, this letter is not about doom and gloom. Our 
local Chamber has launched a program to encourage residents to 
shop locally first and support the businesses in town. While 
these efforts are making a small difference, it is nothing 
compared to the difference more staff at our borders could 
make.
    Every person in our community and neighboring communities 
across the border realizes the importance of keeping our 
borders secure. Now more than ever we know that the price of 
freedom is eternal vigilance. We would ask you to understand 
that in order for our communities to survive it is imperative 
that people are able to move freely between the United States 
and Canada without worrying about line-ups and excessive 
delays.
    While our community is surviving at the moment--we would 
like for it to be thriving. We need your help in this matter. 
Please send more staff to help our Border Patrol and Customs 
Agents.
    Thank you.
    [The prepared statement of Ms. Christianson follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.063
    
    [GRAPHIC] [TIFF OMITTED] T2583.064
    
    [GRAPHIC] [TIFF OMITTED] T2583.065
    
    Mr. Souder. Thank you very much.
    Mr. Clement. You are vice president of----
    Mr. Clement. The National Treasury Employees Union. Local 
Chapter 164.
    Mr. Souder. So you represent Customs.
    Mr. Clement. Customs. Chairman Souder, Representative 
Larsen, thank you for the opportunity to provide this 
testimony. I am one of the many U.S. Customs employees who 
serve as the first line of defense on the border between the 
United States and Canada.
    I am the president of the National Treasury Employees 
Union, Chapter 164. I represent over 200 uniformed and non-
uniformed employees of the U.S. Customs Service. My chapter 
covers 14 ports of entry, 13 of those are in the State of 
Washington. It stretches as far north as Vancouver, British 
Columbia--Vancouver Pre-clearance--as far south as the San Juan 
Islands and reaches as far east as Metaline Falls. Each of 
these locations specialize in a task essential to the Customs 
mission. Those tasks range from the clearance of passengers on 
planes, ferries--automobile and pedestrian--ferries, Amtrak, 
automobiles, boats, small boats, and pedestrians at land 
borders to the clearance of commercial merchandise at our 
commercial truck facilities, rail stations, seaports, and air 
cargo facilities.
    To assist us with the threat assessment at the Northern 
border, Customs has installed an auditing system called COMPEX 
which takes a random sample of traveling conveyances. Our data 
tells us that in the Northwest, we have the richest environment 
for noncompliance in the country. Noncompliance is a term that 
identifies violations of customs or other agency law.
    In light of the recent world and domestic events, Customs 
must tighten security at ports of entry. It is not acceptable 
to allow automobiles, trucks, and pedestrians through and 
around our checkpoints without inspection. This happens on a 
routine basis.
    There are many solutions to preventing these problems, some 
are costly, and others are as simple as installing a metal gate 
to close a traffic lane as opposed to a single orange traffic 
cone. Surveillance cameras and plate readers, license plate 
readers that is, could be installed in locations where physical 
identifiers such as license plate numbers, the make, model, 
color, and possibly the identity of the occupants can be 
readily researched for intelligence and pursuit purposes. This 
would provide Border Patrol and other assisting agencies with a 
specific target to challenge those attempting to circumvent 
inspection and avoid detection. Without these tools we are 
limited and the security of the United States remains at risk.
    Illegal entry into the United States is quite simple. We 
have miles of wooded areas between ports. These locations 
conceal the movements of traffickers and terrorists alike. Our 
only defense is the small number of Border Patrol Agents and 
Customs Agents that are understaffed and overwhelmed with their 
huge area of responsibility. This is not to mention the wide-
open waterways of the Puget Sound and Pacific Ocean. At the 
area Port of Blaine, we have a telephone reporting system where 
a traveler on a small watercraft can call and report their 
arrival to the United States up to 1 hour before they leave 
their residence. Those same systems are in place for small 
aircraft and hikers on international trails between the United 
States and Canada. The problem with these systems is that we 
have no control over when the report of arrival is made. Many 
report after they have reached their destination and returned 
to their home nearby. Even if we had the ability to send 
someone to their location to inspect them and their conveyance 
upon notification, the off loading of contraband or subjects of 
interest may have already occurred. Most of the smugglers 
encountered by Agents during enforcement operations don't even 
bother to call because the chances of getting caught are 
minimal. Recently the Bellingham Herald, a local newspaper, 
wrote an article identifying this same topic. I believe the 
name of the article was ``The Simplicity of Entering the U.S. 
Unlawfully.''
    Commercial cargo at Blaine travels through a new $14 
million facility. At this facility, a commercial truck with a 
container full of foreign goods can have its cargo cleared and 
entered into the United States in less than a minute. That same 
conveyance can be selected for inspection and required to back 
up to the loading dock or told to pull ahead to the mobile x-
ray vehicle. After referral, the inspector has no capabilities 
to monitor the movement of the shipment because the layout of 
the facility is not conducive for continuous monitoring once it 
leaves the primary booth and the inspector's line of sight. 
This creates a huge security and safety issue. If a vehicle had 
a dangerous shipment that could cause harm to America, it could 
feasibly keep on going and not be detected until minutes later. 
Sometimes the cargo is legitimate, but it may contain 
contraband placed in the shipment by the driver or someone 
loading it. This is not only a problem at Blaine. Other 
facilities have less technology and worse security. It is 
important to note that truckers communicate with each other, 
and they know which port to go to minimize the likelihood of 
delay.
    Rail cargo is a different topic. I would like to mention 
that we have less control of those shipments. At the area port 
of Blaine, we have no inspection facility for clearing the five 
cargo trains averaging 70 plus cars, or the Amtrak train from 
Vancouver to Bellingham.
    Customs is not faring well on the legislative 
appropriations front. The information I am hearing from the 
media suggests that Customs is far from the focus of Congress. 
This is unpleasant news in that Customs has taken the lead on 
the Northern border in staffing major and remote ports of entry 
24/7. Customs has staffed their cargo facilities to ensure that 
the billion-dollar commerce between Canada and Customs 
continues to flow at pre-September 11th levels. At the area of 
Blaine, this demand has forced staffing on the midnight shift 
to double. This translates to 10 Customs Inspectors staffing 
three locations and an 11th being reassigned to work both rail 
and cargo, while Immigration's staffing on the same shifts has 
only increased by 1. These additional assignments create even 
heavier demands on an already heavy work week.
    Customs employees in Chapter 164 are a motivated group with 
a can-do attitude. They have embraced every new technology that 
has been rolled out by Customs. They have mastered that 
technology and become experts in use in a very short time. They 
work long hours under less than ideal conditions. Inspectors 
work most holidays, and yet some inspectors volunteer to work 
16 hours on holidays so that others can be home with their 
families. Throughout our chapter, inspectors routinely work two 
to three double shifts a week. I know of two inspectors who put 
off cancer treatments in the days after the events of September 
11th, just so that they could do their part. Yet still after 
many long hours in the rain, wind, cold, and sacrifices, they 
remain professional in the face of adversity.
    I would like to thank you for the opportunity to submit 
testimony on behalf of all of the members of the National 
Treasury Employees Union, Chapter 164.
    [The prepared statement of Mr. Clement follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.066
    
    [GRAPHIC] [TIFF OMITTED] T2583.067
    
    [GRAPHIC] [TIFF OMITTED] T2583.068
    
    [GRAPHIC] [TIFF OMITTED] T2583.069
    
    Mr. Souder. Thank you for your testimony.
    I want to make sure that both you and Mr. Emery take back 
to your fellow members how thankful both Mr. Larsen and I and 
all Members of Congress so your thoughts in Washington can be 
expressed. Our thanks as you work over time, work long hours, 
give up going in for cancer treatment. You are going above and 
beyond the call of duty and we appreciate that. I think that 
with Mr. Boehner on board, Mr. Ziegler clearly has been on the 
hill before and working it hard. Mr. Boehner, you are seeing 
more attention paid to these areas and you will. And some of 
the questions will bring some of this out. I want to make sure 
you take back to your members that, in fact, you are 
appreciated and you realize that we are only as safe in our 
country as the skill of your employees at detecting and 
catching those people like over at Port Angeles or others. 
Finding drug loads, focusing on the terrorist at the range.
    I would like to point out, we are all paranoid about 
threats. We have had five people die. 17,000 people last 
recorded have died. Narcotic attacks in the United States. We 
are under that. We are at a point trying to stop that.
    Mr. Emery. My name is Jerry Emery and I am the vice 
president of Local 40, the American Federation of Government 
Employees.
    Mr. Chairman and other honorable members of the 
subcommittee, thank you for allowing me this opportunity to 
testify before you about my knowledge of the Northern border 
immigration inspections process. I have proudly served the 
Immigration Services 20 years, 7 years in the deportation 
branch and 13 years as an inspector on both the Southern and 
Northern borders.
    I am here today as a representative of all concerned 
employees and as their advocate. These employees are dedicated 
men and women who protect our borders and perform the task of 
enforcing the laws of the land while providing service to the 
traveling public. They serve as the first representative of the 
United States a traveler encounters upon arrival at our ports 
of entry, with the responsibility of preventing drug and alien 
smugglers, terrorists, and other inadmissible persons from 
entering this country.
    Unfortunately, immigration inspectors are regularly 
frustrated in their efforts to perform their duties in a 
consistent manner. Their efforts to enforce the letter and 
spirit of the law, perform adequate inspections, or conduct 
system checks and interviews necessary to intercept and exclude 
criminal aliens, are hampered by an organizational interest in 
facilitation. This is demoralizing to the inspection staff and 
severely lowered the recruitment and retention rates. In 
addition, the fact that there is disparate pay and benefits 
between them, the Border Patrol, and other Federal agencies, 
inspectors are not afforded law enforcement status or 
eligibility to retire after 20 years of service.
    I want to thank Mr. Coleman and Mr. Hayes for the support 
on this issue.
    Currently, the more than 3,000 miles along the Northern 
land border of the United States is protected by a few 
understaffed ports of entry like the Peace Arch in Blaine, WA. 
The Peace Arch is an eight lane port of entry, my duty station, 
is manned by a cadre of highly trained and motivated 
individuals who take seriously the trust placed in them by the 
American public. The Port operates 24 hours a day, 7 days a 
week, 365 days a year, and is to date staffed with just 24 
inspectors who must perform both primary and secondary 
inspections, expedited removal, and adjudicate visa packages 
and immigration benefits services. As land border inspectors, 
they also perform Customs and Agricultural inspections as part 
of their primary duties. They intercept and arrest criminal 
applicants, possible terrorists, and other violators of the law 
all the while providing the best service possible without 
complaining or failing in their duty to protect our borders.
    This lack of manpower coupled with the higher security 
levels in light of the threat of future terrorist actions, has 
resulted in the traveling public being forced to wait many 
hours to enter the United States. This problem is not unique to 
one port of entry or the Northern land border. Airports and 
land border ports of entry throughout the country are 
chronically short-staffed and under funded.
    The issue of increasing border security that we all face 
here today is extremely complex and no one person or group can 
provide the solution. I believe that a concerted and co-joined 
effort by the newly appointed Commissioner of Immigration and 
Naturalization Service and his staff, the Attorney General, the 
heads of other Federal agencies, lawmakers, and the public, a 
solution can be found. I do maintain that any realistic 
solution should involve meeting the appropriate staffing 
levels.
    The employees of the INS applaud the new commissioner and 
your fellow Members of Congress for focusing on our issue. They 
remain dedicated to their commitment to the safety of those who 
place their trust in them and ask for your assistance and 
support in their effort to consistently enforce the immigration 
laws of this country.
    [The prepared statement of Mr. Emery follows:]
    [GRAPHIC] [TIFF OMITTED] T2583.070
    
    [GRAPHIC] [TIFF OMITTED] T2583.071
    
    [GRAPHIC] [TIFF OMITTED] T2583.072
    
    [GRAPHIC] [TIFF OMITTED] T2583.073
    
    Mr. Souder. Thank you very much for you testimony. And this 
is the final panel because you can see we have--both sides of 
the argument in the same panel how to reconcile, and the 
questions are going to be interesting in trying to work this 
through. Members of the Congress, for those who have to work in 
Washington--7 minutes on any subject is a miracle. And to be 
able to be here a whole day and hear actual debate internally, 
being able to have Customs and feel the question when another 
voice is raised, we don't even get that because we are too 
distracted with all sorts of voting and bells going off. This 
has been tremendously helpful for us to concentrate and we 
appreciate that. We were hoping in the Appropriations bill to 
try to work with the Civil Service Committee and Appropriation 
to get this problem fixed on the law enforcement status, but it 
is a little more complicated in relationship to trying to work 
with the different agencies.
    But we are trying to address it. Mr. Ziegler brought it up 
twice at our subcommittee hearing. He clearly wants to address 
it the sense of Border Patrol. We are very aware of it because 
particularly this is kind of a new angle here today about not 
having job preference as much here. We already had a huge 
question, 60 Minutes or somebody did it. Not very pretty story, 
but we had problems so we know we have to address that 
question. How and when, we can't assure that right now, but 
there is a high degree of awareness.
    Before September 11th--we call them cardinals, but chairman 
Rogers and Chairman Wolfe called a meeting of those interested 
in border issues. Normally--I think we had 30 or 40 members 
show up. And one of the things that Mr. Ziegler said, talking 
about tripling Border Patrol, he said, we lost five agents. 
What do you mean, you lost five agents? You are supposed to be 
adding. And there is a general awareness across the board about 
the challenge we have right now as we look at airport security, 
sky marshals, more people in the military potentially in the 
long term here, guards getting exhausted as we use them for 
everything. And we have to figure out how to pay for this.
    Of course, being from Indiana, Ms. Daniels is a friend of 
mine, and just spoke at a big Republican dinner in Indiana. And 
everybody cheered when they said, cut the budget. Then 
afterward they come up to me and said, not our roads, our 
Security Trust Fund, by the way we need more tax relief, by the 
way we need more this and that. And that is our dilemma. 
Senator Gardner knows it is a constant pressure we are trying 
to work through in time past, but we are more conscious of 
this, and we are going to try to address it.
    Let me ask a generic question first. Because in listening 
to the last panel and this panel actually, you all agree that 
the smaller businesses in the United States are being hurt more 
than the bigger business?
    Mr. Kremen. I think that is--that is just the way the 
economy is any more. I mean, it is pretty tough for ma and pa 
to make it anymore because everybody is gobbling up everybody 
else. But that is generic. Here we are all feeling the effects. 
Not only the economy but the ramifications from September 11th. 
It is across the border. I don't know about British Columbia, 
but here it is across the border.
    Mr. Souder. Let me ask a--driving up last night from Seatac 
Airport, if anybody doubts that the world has changed since 
September 11th, I had half my district at lunch today talking 
about a knife being pulled at Seatac Airport. Before that it 
would not have been a national story. It's a whole different 
world right now. In Bellingham and some of the other areas 
there are large business areas, malls, number of things, and 
further south some of the cities that some of the reason we are 
seeing that the traffic--in other words, the traffic may not be 
down 70 percent as a whole, but is part of that because the 
traffic that was going to Seattle is still going to Seattle or 
moving some of the bigger cities and smaller cities have been 
affected?
    Senator Gardner. I think if you look at the pattern, well, 
first let me start, Mr. Chairman, by saying, you would make 
your life a whole lot easier the next time you come to visit 
Blaine, if you will fly into the Bellingham Airport. It is much 
more pleasant. We see a pattern of the shoppers, if you will, 
people who want to go to the theater, want to go shopping, want 
to go to the restaurant, where they start coming down and they 
will go all the way down to the first Nordstrom store, which is 
in the north end of Seattle. So within that area you will see a 
lot of people coming. Obviously, they peel off along the way.
    We get a lot of gas and grocery store people here in 
Blaine. We get a lot of people in our restaurants. Bellis Fair 
Mall, which is the big shopping mall in Bellingham, has a 
tremendous amount of Canadian shoppers there. But we still see 
people going south. One of the reasons, unfortunately, that we 
can sort of measure the impact in our local businesses, is that 
the economic down turn hit us a lot earlier than it did a lot 
of other places. Fully a year before the September 11th act, we 
had already seen the real restriction in our economy because of 
the two major layoffs. And what we have seen here in the 
Whatcom County area is really apart from the economic 
situation. It is more a part of the border, so when we say 50 
or 60 percent, that really is a reflection of the loss of the 
Canadian shoppers.
    Mr. Souder. Is part of that addition--good job of 
separating. I am trying to figure out some of this geographic. 
You are thinking, I am going to spend a Saturday and go down to 
Portland. The additional delay at the border may not be as 
significant if I am going across for lunch or I am going to gas 
up. In other words, are they seeing 70 percent drops further 
down?
    Senator Gardner. Yes. As for the Canadian shoppers, I would 
expect, yes, they are. Because the person that is going to come 
across just for gas or for groceries is just simply not going 
to come. But the person who might want to drive down to the 
first Nordstrom store, you are looking at 2 hours in the car 
just for driving time to the border. If you add travel time on 
the other side of the border and the border wait, there is no 
time to shop, so they don't bother. I think it is pretty well 
across the border.
    The only time that I think people will brave it is if they 
are coming for a longer period of time. If they are planning to 
spend a weekend or if they are catching a plane to go fly down 
to Mexico or to Alaska or something, then they are going to 
come across, but pretty much we are not seeing people if they 
have an opportunity, no.
    Mr. Kremen. I get the idea you have the impression that 
people primarily go to buy a couple of toys or a meal or see a 
movie. I mean, just the statistics that were given to us 
earlier today about the truck traffic. The decrease in the 
truck traffic is monumental. And I think that is kind of 
indicative of the whole situation across the whole set. It is 
not just what you would think would be someone just going to 
have dinner or a day trip. People in British Columbia that were 
doing a lot of business in the States and using this community 
kind of a satellite base, have either quit doing that or are 
contemplating quitting doing that because of the hassle, time, 
and as you well know, time is money, and it doesn't pencil out. 
It is a pretty severe situation here. More than you would think 
on the surface.
    Mr. Souder. I am trying to sort out a little bit out--what 
is the difference between small and large and also the fact 
border change over longer periods since September 11th is not 
as great as you're right on the border here.
    Mr. Miller. Let me see if I can take a--roughly 70 percent 
of the passenger vehicles that cross the border go through 
Whatcom County, and I suspect----
    Mr. Souder. What percent?
    Mr. Miller. Seventy percent. Now they are on their way 
primarily to Seattle. Now those numbers are based on surveys. 
But I suspect it has been across. And I agree with Senator 
Gardner, that more than likely, and I think I can check for you 
on that and check sources.
    As far as large versus small, I would suggest that in this 
area because we are primarily, we have a few big concerns, 
Georgia Pacific, the university, and Intalco; but most of our 
business here, as across the United States, is made up of 
smaller businesses. But I suspect that because 37 States have 
Canada as their largest trading partner, that sooner or later 
this is going to hit all elements of the economy. And I think 
the dependence, the inner dependence between Canada and the 
United States, I don't think is really realized. I know that 85 
percent of the Canadian international trade with the United 
States. But it goes both ways. So I suspect that it would be 
cross sector.
    Mr. Kremen. Keep in mind that the population in all of 
Canada, about 28 million people, 90 percent of those 
inhabitants live within 100 miles of the border. So they are 
naturally going to be affected somewhat.
    Mr. Larsen. Just a few facts. Washington State unemployment 
rate, 6.6 percent. That was the last number that came out, 
which apparently is the highest in the country. Last week it 
announced that the country unemployment rate was 5.7 and might 
go to 7 percent. We are already at 6.6, and we are likely to go 
higher. Boeing hasn't yet laid people off. Those people's first 
round is this Friday. We are just getting hit a little bit 
harder in Washington State.
    With regards to Whatcom County, sort of been hit by the 
perfect storm. You know, last year it was the energy crisis 
that knocked, helped knock GP off the map, Georgia Pacific. And 
then, of course, Intalco. And then you had the decline of the 
economy generally. Then September 11th. All of that contributed 
to the perfect storm of unemployment, if you will, and 
therefore hitting the small businesses, large businesses, all 
the way around. So my initial comments, I started out by saying 
you are unique geographically in Whatcom County. I think a good 
argument made about that.
    I want to ask a few questions, if I may. First off, echo 
the comments Chairman Souder about the support for the people 
in the front line. I had a chance to meet with Mr. Ziegler as 
well. He is very committed to doing what he can to support INS 
employees, those on the front line. I haven't had a chance to 
talk to Mr. Bonner yet. He hasn't scheduled things so we were 
not able to meet, but I do plan to followup with that. There is 
support for people on the front line as a recognition that on 
the front line, when you are working 16 hour days, that is not 
something that anyone considers the norm. And I want to try to 
do something about that. Mr. Coleman, I want to ask you 
questions about that, about 16 hour days and your sacrifice. 
What kind of role do your members have in deciding what hours 
to work or not work? Sixteen hour day is a long day. Is it 
strictly volunteer?
    Mr. Clement. We have a volunteer system in Blaine where you 
pick the days you want to work and, hopefully, the scheduler 
can accommodate that. So say I take--this week I am taking 
Tuesday, Wednesday, and Thursday as a 16 hour day. Some people 
choose to work the 6th day as overtime. That is basically how 
it goes at our port. I don't know how it goes at Oroville. 
Hopefully it is the same.
    Mr. Larsen. Was that in place before the 11th?
    Mr. Clement. Yes.
    Mr. Larsen. Is your regular week a 48 hour week?
    Mr. Clement. No. Our regular week is 40 hour week. We kind 
of promise to volunteer for a double during that time. Right 
now we are up to two. We are putting two on top of that.
    Mr. Larsen. I have written a letter asking for 70 
additional Customs Patrol. That is the number--Do you think 
that is a good number?
    Mr. Clement. I think that is a solid number. That is the 
Research Allocation Model? I have a lot of faith in that. It 
took 1 percent of our Customs--Customs' budget to come up with 
those numbers when we went through that audit.
    Mr. Larsen. We might as well use it.
    Mr. Clement. It was hard to take at the time, peel off 1 
percent. We had a lot of argument about that.
    Mr. Larsen. Jim, you mentioned the term secured mobility. 
And we talked about that before. And we will be reauthorizing 
T-21 in about a year and a half or so. Talking about 
reauthorization, we have started talking about it and jump to 
that for a minute. What do you see differently in terms of 
mobility and transportation of infrastructure to address 
security generally?
    Mr. Miller. Well, generally I think that we have to improve 
our technology, whether it is NEXUS. I know we have some 
regional initiatives up here as far as bonded cargo, pre-
clearance, and I think that has to be broadened. I think as far 
as reauthorization goes, you have a brand new program that in 
that the Border Section 11.18, 11.19 both are funded from one 
pot of money. Initially started through the process. When it 
came out of Federal highways there was a firewall between those 
two. I believe the total on an annual basis is about $144 
million, take down it is a net of about $120 million. So both 
borders around the country. I would suggest that the firewall 
be reinstored and that there be adequate funding for 
infrastructure that goes along with some of this technology. I 
mean, you have to have both. For example, you can't have 
technology pre-clearance without a lane separating pre-clear 
and non-preclear.
    And then getting to question as to specifics in our area. 
We have through our IMPC up here at the border, all of the 
agencies, Federal, State, provincial, local governments and the 
private sector to identify and solve problems. And it has been 
tremendously successful. And I think that the infrastructure at 
the commercial crossings, for example, 543 has been identified 
as a top priority for the IMPC, for 3 or 4 years now. That 
really--get that fund in the next year or two. I think we could 
make this a model because it has technology. Soon as we get the 
staff. That is the first thing. But it has technology. It has 
the proper separation. It has security. It has been out there 
for a number of years. It is ready to go. We have $15 million 
of about a $25 million project. That money sits waiting for 
additional funds necessary, and that will do it for us.
    Mr. Larsen. Just to highlight the letter that Senator 
Gardner has attached. I had a chance to meet with the 
prosecuting attorney about this issue of funding and for the 
cases that they prosecuted and U.S. Attorney's Office could 
prosecute. I just want to highlight that as a, just another 
example of the problems that we are having in Whatcom County 
because of this compilation of events here. It is tough 
enough--as a former county elected official, it is tough enough 
to be at the bottom of this chain and being asked to do a lot 
of things. Problem--and Mr. Kremen outlined another example. 
Just another example of these mandates that the county elective 
have attempted to fulfill and Whatcom County is ever tougher.
    Mr. Miller. Mr. Larsen, I would like to comment on that. 
Mr. Souder. This is where the geographic and demographic is 
unique in our area. We are the third busiest border crossing 
between United States and Canada, yet the fourth busiest 
commercial crossing. Yet when you look at the level of activity 
you have here as opposed to Buffalo, Detroit, even on the 
southern border of the major crossings--San Diego, the 
infrastructure is usually the other way around. We have large 
U.S. cities that are on the border, and more able, I think, to 
absorb some of the criminal justice issues. Here we have a 
reverse. Here we have a huge population north of us and small 
infrastructure here to take care of the tremendous trade and 
movement across the border. And it does make us a little bit 
more difficult situation than you see at the other major border 
crossings. It is tough.
    Mr. Kremen. We also have a larger percentage than almost 
any other community of individuals who are denied access in 
Canada and they wind up, people with mental disabilities, 
mental problems, so it is a real strain on our human services 
department and our health department. And you add that with the 
collection of criminal elements because of the border town, 
etc., it really does exacerbate the normal problems that your 
ordinary community has to deal with. And again, to underscore 
the difference between our community and say, Buffalo and 
Detroit, we just don't have the financial wherewithal or the 
ability to generate the kinds of local revenue to deal with 
these problems. I think we need some special focus and 
attention. And I am not looking for a handout, but I do think 
that there needs to be some reasonable deliberation on, well, 
maybe I will take.
    Mr. Souder. I think maybe one of you can give us something 
to put in the record at this point that tells us why this is a 
wonderful place to live.
    Ms. Christianson. We have 1,300 people in Point Roberts. We 
have 3,500 in Blaine. We have about 7,000 in Lynden and 1,000 
in Sumas. And it is so important to have you here and listen to 
our concerns because it is a wonderful place to live.
    Mr. Souder. Before we close, there was something you said 
that I didn't understand with regard to the border crossing. In 
your second page you said you were talking about new commercial 
facility. And you said the inspector has no capabilities to 
monitor movement and shipment.
    Mr. Emery. Excuse me, sir. That's me.
    Mr. Souder. Sorry. Can you explain what you mean by no 
capability to monitor? You mean once they go through they can 
run for it?
    Mr. Emery. Yes. Basically the primary lanes are facing 
straight north. And the truck has to take a 90 degree turn. 
Goes around the corner and you lose visual contact with it. And 
the loading dock is around on the west and set behind the 
building, so you can't see if your referral went into the 
loading dock or not. A lot of commercial carriers and stuff so 
you have some in-house formal way of making sure that goes, but 
when you get busy, you can't make sure if they are all parking 
where they are supposed to park.
    Mr. Souder. Do you know of any cases where they just keep 
going?
    Mr. Emery. Yeah. They just keep going around the building 
and head on down the freeway. Once they get within a minute, a 
mile away from the border; 3 minutes will be off the freeway.
    Mr. Souder. But you don't know of any cases at this point? 
What would you do to fix it?
    Mr. Clement. We call Border Patrol. Oh, what we do to fix 
it? Just technology, monitoring system, camera. It was a design 
flaw that we identified before the building went up.
    Mr. Souder. Mr. Emery, the question I had for you were two. 
One was where you made a written testimony was a little 
stronger as you went through. You felt that your office put in 
pressure between trying to expedite traffic and do your 
clearance. Does that build on weekends?
    Mr. Emery. Yes, it does. From Friday through Sunday it 
does.
    Mr. Souder. As a practical matter, do different agents 
decide which things they are going to check? Do you do more 
profiling, or what do you do?
    Mr. Clement. Each inspector has its own way of dealing with 
the amount of people that come in and out. We don't normally do 
a profiling kind of thing. It is--each officer has their 
experience, and he uses that experience, and as we lose 
officers we lose that experience. When we lose that experience, 
people fall through the cracks.
    Mr. Souder. You know, people think of profiling as a bad 
thing but I came across legalized marijuana and----
    Mr. Emery. I don't know how to answer that.
    Mr. Souder. Do you find if you work a double shift, 
regardless of how hard you are focused, it is harder to 
concentrate?
    Mr. Emery. Yes, sir. The nature of our work makes us more 
focused. The more focused you are and the more you work the 
more tired you get. Yes.
    Mr. Souder. The importance of us for retention and also not 
having people exhausted--I will get into particulars. You don't 
realize how close call it is. It is something you notice a 
little bit different on a flap. You think, I am going to go 
after that truck. Somebody is a little more nervous with a 
question, or you saw something weird in the back seat, and you 
want to check it. It is astounding how alert somebody has to be 
and experienced you have to be to catch them.
    Mr. Emery. That is true, sir. The longer you work at this 
job, the better at that you get. And if we can't retain those 
officers, especially up here we--our officers that are more 
experienced seek better pay grades, different agencies, they 
are going to go there. And giving our officers law enforcement 
coverage and grade structure, we are going to keep those 
officers up here.
    Mr. Clement. One thing on the retention. I just looked 
through the personnel here in Blaine. 18.9 percent of the 
inspectors at the end of 2002 will be eligible for retirement.
    Mr. Souder. Is the scuttlebutt both of you are hearing is 
that people are likely to take that?
    Mr. Clement. The stress is wearing on people. I am hearing 
people say they are going to call it quits. They don't want to 
right now. They are vested.
    Mr. Souder. Thank you all for your testimony. It has been 
helpful for us to learn nuances and Ms. Campbell personalized a 
number of things. Mr. Kremen, I believe, in his testimony said, 
a great line: The richest environment for noncompliance in the 
countries combined with businesses being devastated because you 
can't move across the border, and that is our dilemma in a nut 
shell. So we will do our best to address it, and it has been 
very helpful.
    Mr. Larsen. I just want to say thank you to the chairman 
for coming to Blaine, for recognizing that things like this are 
not just taking place east of the Mississippi but we have up 
here, help illuminate solutions. I am not a member of the 
committee, so I want to also thank you for the opportunity to 
participate in today's hearing, and I look forward to working 
with you.
    Mr. Souder. Thank you. One of our biggest challenges--an 
illustration somebody coming all the way from southern Montreal 
coming across the ferry, New York Trade bombing, going the 
other direction. As you see movement back and forth across 
Canada, back and forth across the United States, and you see 
the cells moving in from Germany and Spain and connected in 
Rome and the Netherlands and Canada and the United States, all 
of a sudden we are awful small. And all of a sudden you feel 
very vulnerable as Americans.
    It is very similar to narcotics. And yet, you can't just 
say, stop. You are so interconnected at this point. It isn't 
just here it is interconnected. It is about 37 States. And many 
times, quite bluntly, one of the greatest strengths in Canada, 
and one of their irritations is that because we speak for the 
most part English, it's a little bit different in Quebec, that 
because we are very similar that we don't necessarily realize 
when there are Canadian owned businesses or Canadian exchanges 
as much as we are aware of other nations' investments and their 
connectivness. And we are learning that. This is one of the 
most valuable experiences if we do this right. I think we are 
all hearing this is likely somewhere in the next 6 months, 
whether it is Anthrax, whether it is another attack on 
Americans abroad, or whether it is something we heard like in 
Montreal, that this is likely to keep us more on edge. The 
uncertainly of all of this really makes it difficult to figure 
out what I learned, and at is No. 1 thing that business can 
look for is predictability. That is the No. 1 thing that we 
don't have right now.
    Thank you very much for coming. And at this the hearing 
stands adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T2583.074

[GRAPHIC] [TIFF OMITTED] T2583.075

[GRAPHIC] [TIFF OMITTED] T2583.076

[GRAPHIC] [TIFF OMITTED] T2583.077

[GRAPHIC] [TIFF OMITTED] T2583.078

[GRAPHIC] [TIFF OMITTED] T2583.079

[GRAPHIC] [TIFF OMITTED] T2583.080

[GRAPHIC] [TIFF OMITTED] T2583.081

[GRAPHIC] [TIFF OMITTED] T2583.082

                                   - 

</pre></body></html>
